OFFICE OF INSPECTOR GENERAL
U.S. Department of Transportation



Seminannual Report
to the Congress




April 1, 2000 - September 30, 2000
Contacts
Inspector General
Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1959


Acting Deputy Inspector General
Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1959


Assistant Inspector General for Auditing
Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1992


Acting Assistant Inspector General for Investigations
David H. Gamble . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1967


Senior Counsel
Roger P. Williams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-8751


Senior Counsel for Legislative and External Affairs
Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-8751


Public Affairs Officer
David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-6312


Deputy Assistant Inspector General for Aviation
David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0500


Deputy Assistant Inspector General for Financial/
Information Technology/Departmentwide Programs
John L. Meche . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1496


Deputy Assistant Inspector General for National Transportation Infrastructure
Vacant . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0687


Deputy Assistant Inspector General for Maritime and Highway Safety
Thomas J. Howard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-5630


Deputy Assistant Inspector General for Competition,
Economic, Rail, and Special Programs
Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-9970

                                                                                Table of Contents


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
Audits and Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
Focus:          DOT Acting on Management Challenges Identified by OIG . . . . . . . . . . . . . . . .7
                DOT Needs to Eliminate Downtime on Rulemakings . . . . . . . . . . . . . . . . . . . .10

OIG Organization and Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

Work Planned and In Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12

Focus:          Limited Progress in Disposing of Obsolete Vessels . . . . . . . . . . . . . . . . . . . . .17
                Flight Delays, Cancellation, and Customer Service . . . . . . . . . . . . . . . . . . . . .18
                Web is Changing Ticket Purchasing Patterns . . . . . . . . . . . . . . . . . . . . . . . . . .19
Audit and Investigative Results:
                April 1-July 30, 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
                Illinois CDL Prosecution Continues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35
Audit and Investigative Results:
                August 1-September 30, 2000… . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37
PCIE Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57
Charts and Tables:
                Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
                Application of Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47
                Completed Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48
                Management Decisions Regarding Audit Recommendations . . . . . . . . . . . . . .49
                Reports with RecommendationsThat Questioned Costs . . . . . . . . . . . . . . . . .50
                Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . .51
                Recommendations for Safety, Economy or Efficiency . . . . . . . . . . . . . . . . . . .52
                Status of Unresolved Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . .53
                Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54
                Investigative and Judicial Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .55
                List of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .59


                                                                                                                                        3
                    From the Inspector General




T
        he first year of the 21st Century brought with it numerous challenges to the Office of Inspector
        General. During the past fiscal year, we issued 128 audit reports, testified before Congress 28
        times and conducted criminal investigations that resulted in 235 convictions. These statistics indi­
cate how seriously we take our statutory mission to detect and prevent waste, fraud and abuse while assist­
ing DOT and Members of Congress in achieving a safe, efficient and effective transportation system.

 Congress has authorized and appropriated record sums of Federal funds for highway, transit and aviation
infrastructure projects. In 2000, Congress enacted the Wendell H. Ford Aviation Investment and Reform
Act for the 21st Century (AIR-21) and appropriated nearly $58.5 billion to DOT for FY2001. This sig­
nificant infusion of funds for transportation presents additional challenges to our oversight responsibilities.
That is the reason why we have initiated a major proactive effort to prevent and detect possible fraud in
transportation infrastructure projects. We investigated 58 such cases during the reporting period.

 Our audit and investigative work covered diverse subjects on the transportation agenda of the
Department and Congress. Highlights include: Amtrak’s financial viability and the introduction of high
speed rail on the Northeast Corridor; aviation system capacity and delays; airline customer service; avia­
tion safety; runway incursions and operational errors; major infrastructure projects such as the Central
Artery Project, San Francisco’s Bay Area Rapid Transit system and the Woodrow Wilson Bridge; pipeline
and hazardous materials safety; motor carrier safety and commercial drivers license fraud investigations;
Coast Guard capital acquisitions, such as the Deepwater Project; computer security; financial accounting
and management; timeliness of significant rulemakings; procurement and contracting practices and
Government Performance and Results Act implementation.

 We appreciate the cooperation, support and responsiveness of the Secretary, the Deputy Secretary, the
Operating Administrations and Congress during our work on these and other efforts. We look forward to
serving the American public by continuing our oversight of the Department’s efforts to provide safe and
efficient movement of people and goods.




4
Summary of Performance

Office of Inspector General

April 1, 2000-September 30, 2000

                          Reports Issued
   53
            Congressional Testimonies
      15
     Total financial recommendations
       $750,205,000
         — That funds be better-used        $749,400,000
                   — Questioned costs
      $805,000


              Referrals for prosecution
    109


       Cases accepted for prosecution
      68


                             Indictments
   105


         Fines, restitutions, recoveries
   $40,156,119


                             Convictions
   95


  Contract terminations/debarments          11


   Actions affecting DOT employees          28



                                                           5
Audits & Investigations





T
         he Office of Inspector General includes a staff of auditors and evaluators who review DOT pro-
         grams and make recommendations to enhance their effectiveness and improve their efficiency. Our
         aim is to ensure the Department spends taxpayer funds in a prudent and proper manner. Some
 audits focus on financial issues; others provide oversight of safety programs, contract management, com­
puter security and program performance. The Inspector General’s staff also includes trained criminal inves­
tigators who build criminal cases against lawbreakers — such as trucking firms that force drivers to work too
many hours without rest, haulers who illegally transport hazardous materials, vendors who traffic in illegal,
unapproved aircraft parts and Department employees who abuse the public trust.

 Many factors go into determining what to audit. Some audits are required by law. Others are requested by
key decision-makers, such as the Secretary of Transportation, heads of the operating administrations within
DOT or Members of Congress. The OIG audit plan is also based on the past experience of an audited enti­
ty, the strategic goals of DOT, and priorities established each year by OIG itself.

  Information for OIG investigations also comes from many areas. DOT’s operating administrations and
 state government officials often will refer tips or information about suspicious activity to OIG special agents.
Those agents, often with assistance from other law-enforcement agencies, conduct investigations utilizing,
as necessary, judicial tools such as search warrants and subpoenas to obtain evidence.

  Another source of investigative direction is the Office of Inspector General Hotline, an “800” number that
lets citizens — including federal workers — have direct access to OIG staff. The number is 1-(800)-424-
9071. Hotline users are not obliged to disclose their identities and “whistle-blowers” within the govern­
ment are protected from reprisal by federal law. The Hotline staff can also be e-mailed at
hotline@oig.dot.gov.

 The Inspector General Act requires the Department to provide the Inspector General with all requested
information and for the IG to report any instance in which access was denied. DOT officials withheld no
information requested by OIG during the 6 months covered in this report. ■




6
                                                                                        FOCUS:


DOT Acting on Management Challenges Identified by OIG



I
    n each of the last several years, lawmakers have    We grouped these management challenges into the
                                                        categories of:
    asked federal inspectors general to identify and
    report on the top management challenges             ■   Aviation Safety
within their agencies. Our 2000 list identified 12      ■   Surface Transportation Safety
program areas requiring continual attention to
                                                        ■   Air Traffic Control Modernization
ensure safer transportation, those in which there are
significant economic and efficiency concerns and        ■   FAA Financing
others with questionable success in achieving           ■   Surface, Marine and Airport
results. Our 2001 list, due to be released in               Infrastructure
December includes 10 program areas.                     ■   Transportation Security

 At the request of Senator Fred Thompson, the           ■   Computer Security
chairman of the Senate Committee on Govern-             ■   Financial Accounting/Chief Financial
mental Affairs, we also issued a report in August           Officers Act
2000 reviewing how well DOT’s 1999 Perfor­              ■   Amtrak Financial Viability and
mance Report and 2001 Performance Plan covered              Modernization
the management issues we identified and whether         ■   Coast Guard Deepwater Replacement
the department is making appropriate progress.              Project

                                                        ■   MARAD’s Ship-Scrapping Program

                                                        ■   Government Performance and Results Act
                                                            Implementation

                                                          We have also recently written lawmakers interest­
                                                        ed in the Government Performance and Results
                                                        Act, to state that the Department’s new Strategic
                                                        Plan for 2000-2005 incorporates detailed informa­
                                                        tion drawn from our annual top management chal­
                                                        lenges report. The Strategic Plan is measurably
                                                        strengthened through its treatment of these areas. ■




                                                                                                           7
Top 12 Management Issues Facing DOT





D
           OT has shown Government-wide leadership in implementing the Government Performance and
           Results Act (GPRA). A recent study by the Mercatus Center of George Mason University ranked
           the Department’s March 2000 Performance Report/Performance Plan among the best in the
Government. The Department was able to report prior year data for over 90 percent of its performance
measures, a significant improvement over the 63 percent attained in the dry run of the performance report
prepared in March 1999.

 We believe that further progress is possible. Improvements could be implemented to both strengthen the
Performance Report/Performance Plan and increase the likelihood of the Department meeting perform­
ance goals where it currently falls short. In our August 28, 2000 report to Congress, we commented on
each of the top 12 management challenges. Our most important observations include having the
Department:

    Focus Efforts on Lowering Runway Incursions and Operational Errors

 Runway incursions, which are incidents on the ground, which create a collision hazard, increased 34 per-
cent (from 230 to 321) between 1995 and 1999. In the first eight months of 2000, there were 288 run-
way incursions, a 39 percent increase from the same period in 1999. Operational errors, which occur when
air traffic controllers allow planes to get to close to each other, increased 27 percent (from 764 to 939)
between Fiscal Years 1996 and 1999. In the first 11 months of Fiscal year 2000, there were 1,053 opera­
tional errors, surpassing the 939 operational errors that occurred in all of Fiscal Year 1999.

 While DOT’s Performance Plan/Performance Report lays out plans for reversing increases in both these
areas, it is clear that FAA’s management efforts have been insufficient. FAA needs to establish a system to
ensure that planned initiatives are completed, develop local action plans to correct airport-specific problems
and revise its runway incursion data to better identify causal factors and risks. FAA should also take actions
needed to reduce operational errors at its air traffic facilities that continue to have increases in the number
and rates of operational errors. [Aviation Safety Management Challenge]


    Promulgate Statutorily Mandated Safety Rulemakings

  Our June 2000 audit report on the Department’s rulemaking process concluded that DOT took twice as
long to issue rules and completed half as many significant rules in 1999 as it did in 1993. Our analysis of 54
open and completed significant rules showed that Operating Administrations did not work on rules for an
average of almost 2 years, which is even greater than the average time spent developing or reviewing rules.


8
 Lack of progress in issuing these rules is impeding progress in many important areas including motor car­
rier and pipeline safety and security at marine passenger terminals. As this report goes to press, the Secretary
has committed to developing a tracking system to help ensure timely action and accountability on the over-
due rules, as well as instituting permanent improvements to the process. (See related story, page 10).
[Crosscutting, but particularly relevant to the Surface Transportation Management Challenge]


 Airline Flight Delays and Cancellations

 Flight delays have increased significantly since 1995, but DOT and the airlines’ efforts to improve service
are hampered by conflicting data provided by FAA and BTS. Without reconciling the data, it will be diffi-
cult to quantify the success of the Department’s initiatives to identify the causes of delays and cancellation,
enhance airspace design technology, improve airport infrastructure and identify best practices in providing
better service and accurate information to air travelers.

 The Department needs to develop a set of capacity benchmarks measuring the traffic departure and arrival
rate by time of day at the top 30 airports that can be accommodated without experiencing major delays or
compromising safety.

 Over the past year, DOT has announced a number of actions to address the growth of flight delays and
cancellations, including the Spring/Summer 2000 initiative for managing air traffic. The Secretary has also
formed task forces to: determine the causes of delays and cancellations; identify best practices in providing
better information and service to air travelers, and; expedite investment in technology and infrastructure.
(See related story, page 18) [ATC Modernization Management Challenge]


 Oversight of Central Artery Project

  The need for greatly improved oversight was highlighted by the recent experience with the Central Artery
Project in Massachusetts. (See related item, page 27.) In February 2000, the Department was surprised by a
$1.4 billion cost increase on the Central Artery/Ted Williams Tunnel after FHWA had ignored our warnings
that the project’s finance plan failed to accurately disclose continuing cost increases. The situation could have
been avoided if both Federal and state officials had closely examined the Finance Plans and independently ver­
ified the data they were provided.

  FHWA has since issued new guidance on finance plans and
entered into an agreement with the state of Massachusetts to
limit the Federal contribution to the project of $8.549 bil­
lion. In addition, the state replaced top project management,
committed to providing complete and accurate financial
reports on a regular basis, and pledged to identify adequate
funding to meet all of the cost overruns. [Surface Marine and
Airport Infrastructure Management Challenge]


                                                                                                                9
 FOCUS:


 DOT Needs to Eliminate Downtime on Rulemaking Process

 D       OT took more than twice as long and completed half as many significant rules in 1999 as it did in
        1993, we found in an audit of the department’s rulemaking process.
     Conducted at the request of Rep. James Oberstar, Ranking Democratic Member of the House
 Transportation and Infrastructure Committee, our review found that for the significant rules completed
 in 1999, DOT took an average of 3.8 years and a median of 2.8 years to issue a final rule. We also found
 that in 1999 DOT met only 10 percent of its congressionally mandated deadlines, as compared to 16
 percent in 1993.
                                           Completed Significant Rules — 1993 through 1999
  The Department’s rulemak­
 ing process was slowed by sig­
 nificant periods of downtime,
 with an average of almost 2
 years per rule passing without
 work being performed. Some
 operating administrations were
 not working on rules because
 they did not make timely deci­
 sions to advance the rules or
 did not consider the rules a pri­
 ority.

   We made several recommen­
 dations to the Secretary to help ensure that senior management officials are held accountable for the time­
 ly completion of rules, including establishing the timely completion of significant rulemaking actions as a
 priority within the DOT Strategic Plan, setting Departmentwide priorities and establishing schedules for sig­
 nificant rulemaking actions, and creating a Departmentwide rulemaking tracking and monitoring system to
 identify problems and take corrective actions to streamline the rulemaking process.

  DOT concurred with our recommendations, including our suggestion to establish a rulemaking process
 training program for incoming senior managers. The Secretary also ordered Operating Administrations to
 identify high-priority rules for completion by the end of the year. In a letter to Rep. Oberstar, the Secretary
 said the Department will develop a tracking system to help institute timely action and accountability in the
 rulemaking process to prioritize key rulemakings in progress. ■

10
                                               Organization/Management

                                         Inspector General


                                           Deputy Inspector General


                                                                                                    Senior Counsel
            Assistant IG For                       Assistant IG For                Senior Counsel for Legislative & External Affairs
                                                                                           Information/ Human Resources
             Investigations                           Auditing                            Financial/ Administrative Services
                                                                                     Quality Assurance Review/ Internal Affairs


                                                                     Deputy            Deputy AIG For
                                                                     AIG For                                        Deputy
                                               Deputy                                    Financial,
     Deputy                 Deputy                               Competition,                                       AIG For
                                               AIG For                                  Information
     AIG For                AIG For                               Economic,                                        National
                                             Maritime &                               Technology and
  Investigations            Aviation                            Rail and Special                                Transportation
                                           Highway Safety                             Departmentwide
                                                                   Programs                                     Infrastructure
                                                                                         Programs



The Office of Inspector General for the Department of Transportation was created by Congress
through the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:

             ■     To conduct or supervise objective audits and investigations of DOT’s programs and
                   operations;
             ■     To promote economy, effectiveness and efficiency within DOT;
             ■     To prevent and detect fraud, waste, and abuse in the Department’s programs;
             ■     To review existing and proposed laws or regulations affecting the Department and make
                   recommendations about them, and
             ■     To keep the Secretary of Transportation and Congress fully informed about problems in
                   Departmental programs and operations.



 OIG is divided into two major units and five support units. The major units are the Office of Assistant
Inspector General for Auditing and the Office of Assistant Inspector General for Investigations; each has
headquarters staff and field staff. The support units are the Office of Legal Counsel, the Office of
Legislative and External Affairs, the Office of Information Resource Management, the Office of Human
Resources, the Office of Financial and Administrative Services and the Office of Quality Assurance
Review/Internal Affairs.




                                                                                                                                 11
 Office of Inspector General
 Work Planned and in Progress


I
         n the interest of maximizing the benefits provided by DOT to citizens, the Secretary of Transportation
         has developed a Strategic Plan setting priorities for DOT staff and allocating of resources. This section
         illustrates major OIG work planned and in progress in relation to the Secretary’s priorities of Safety,
 Mobility, Economic Growth and Trade, Human and Natural Environment, National Security and
 Corporate Management.

   For example, in the area of safety, we are evaluating the Federal Aviation Administration’s efforts to iden­
 tify and deploy new technologies to reduce runway incursions and examining how well the Federal Motor
 Carrier Safety Administration is overseeing the Commercial Driver’s License Program.

  We are also reviewing the Department’s efforts to improve the mobility of our nation’s citizens and stim­
 ulate economic growth and trade through the construction of “mega projects” such as Boston’s Central
 Artery Project and the Woodrow Wilson Bridge just outside of Washington, D.C.

  In the coming months, we will continue examining the security of the Department’s computer networks
 in support of DOT’s national security strategic goal. We will also continue to conduct financial audits in sup-
 port of the Department’s management goal of providing effective and efficient services.


 Department-Wide:
     Fraud Detection and Prevention

     Continue oversight of infrastructure projects authorized under TEA-21 and AIR-21, including audits of
     ■
 financial plans, cost schedules, project management, and prevention and detection of fraud. Not since the
 construction of the Interstate Highway System has there been such an infusion of federal funds. Our efforts
 are intended to avoid a repeat of historical scandals associated with the building of the interstate system.
 (Mobility and Corporate Management)


     Computer Security

     Evaluate whether sufficient controls are in place to prevent, detect, and respond to unauthorized access,
     ■
 including via the Internet, to critical systems on DOT Headquarters computer networks. (National Security
 and Corporate Management)

    Determine the effectiveness of the Department’s implementation of the new Delphi accounting system.
     ■
 (Corporate Management)

12
 Financial Statements

 ■    Determine whether FY 2000 financial statements prepared by the Department’s Operating
Administrations conform with Generally Accepted Accounting Principles; have adequate internal controls
over financial reporting, and comply with laws and regulations that could have a direct and material effect
on the financial statements. (Corporate Management)


 Performance Goals

 ■   Continue verifying selected DOT performance measures such as operational errors, flight delay statistics
and railroad track safety for data quality, reliability and appropriateness. (Safety)


 Rulemaking

 ■Audit the Department’s implementation of a plan to expedite the rulemaking process. (Corporate
Management)


 Federal Highway Administration:

 ■ Evaluate the methodology used by FHWA to develop its most recent cost estimate to replace the
Woodrow Wilson Bridge over the Potomac River between Maryland and Virginia near Washington, D.C.
(Mobility and Economic Growth & Trade)

 ■   Evaluate the cost estimate for the Springfield, Va.
Interchange Construction Project and review the adequacy of
the funding and scheduling of the project. (Mobility)

 ■  Determine the effectiveness of FHWA’s monitoring of
Intelligent Transportation Systems projects. (Mobility and
Economic Growth & Trade)

 ■Assess the progress made on construction projects for which funds were congressionally earmarked.
(Mobility)

 ■ Provide oversight of infrastructure projects such as the $14.1 billion Central Artery Project, including
audits of cost schedules, project management and mechanisms to detect fraud, waste and abuse. (Mobility)


 Federal Motor Carrier Safety Administration:

 ■  Assess FMCSA’s progress in implementing our April 1999 recommendations to improve motor carri­
er safety and validate the quarterly data submitted by the agency to Congress on the number of violations
cited by safety investigators, the level of fines assessed and collected, and the number of enforcement cases
citing extraordinary statistics. (Safety)



                                                                                                           13
 Office of Inspector General
 Work Planned and in Progress

     ■ Determine whether FMCSA is ensuring that state and third party testing facilities have sufficient oversight
 over the Federal testing and licensing requirements of the Commercial Drivers License program. (Safety)


                                                  Federal Railroad Administration/Amtrak:

                                                  ■   Assess the accuracy of information in FRA’s safety inspection
                                                 reports and database, and determine whether the database
                                                 information is used appropriately to calculate defect ratios.
                                                 (Safety)

                                                  ■  Evaluate the effectiveness of FRA’s policies and actions to
                                                 ensure railroads take appropriate remedial actions to correct
                                                 safety deficiencies identified in the Safety Assurance and
                                                 Compliance Program. (Safety)

   Perform an assessment of Amtrak’s 2001 Strategic Business Plan and provide its overall financial status.
     ■
 (Mobility)

    Evaluate Amtrak’s progress toward introducing high-speed rail service to the Northeast Corridor.
     ■
 (Economic Growth & Trade)

    Continue our review of efforts by Amtrak, the Long Island Railroad and New Jersey Transit to elimi­
     ■
 nate fire and other life-safety hazards under Penn Station and in tunnels connecting Manhattan with Queens
 and New Jersey. (Safety)


     United States Coast Guard:

    Evaluate the Coast Guard’s progress in implementing interim measures to address deficiencies in the
     ■
 National Distress System; whether the proposed cost and schedule for the National Distress and
 Response System modernization project are reasonable; and the Coast Guard’s
 progress in implementing interim measures to address system deficiencies. (Safety)

    Determine whether the Coast Guard has adequately (1) planned the development,
     ■
 implementation, and operation of a centralized inventory system for spare and repair
 parts used on cutters, and (2) justified its decision to construct a parts warehouse at
 Curtis Bay.


14
 ■   Determine whether the Coast Guard has addressed issues raised in our March 2000 report on the
Deepwater Capability Replacement Project, including remediating deficiencies in the planning process, jus­
tifying the planned budget requests and integrating the Deepwater Project’s funding requirements with
ongoing capital needs. (National Security and Safety, Corporate Management)

 ■   Analyze the management and direction of the Coast Guard’s research and development program and
the allocation and justification of research funds for R & D projects. (Corporate Management)


 Federal Transit Administration:

 ■   Provide oversight of infrastructure projects authorized under
TEA-21, including audits of cost schedules, project management
oversight, and prevention and detection of fraud. (Mobility,
Corporate Management)

 ■  Determine the current cost, funding and schedule data for the
Minneapolis/Hiawatha Corridor Light Rail Transit Project and
identify whether the project is at risk of exceeding costs; not having adequate Federal, state, and local fund­
ing; or not meeting the scheduled completion date. (Mobility)

 ■ Examine the FTA’s oversight of the contracting practices of recipients of federal grants. (Economic
Growth & Trade)


 National Highway Traffic Safety Administration:

 ■ Evaluate how NHTSA identifies and investigates vehicle safety problems and issues consumer alerts and
recalls; examine the agency’s efforts to update its safety standards; identify notification, investigation, and
recall requirements considered as “best practices” by other regulatory agencies that may be used as models
for improving the Office of Defect Investigation; and assess NHTSA’s efforts to enhance public awareness
of its defects investigations. (Safety)

 ■  Assess NHTSA’s efforts to increase seat belt use rate; evaluate whether NHTSA is allocating money to
the projects most likely to achieve the Department’s performance goals; and assess the quality and nature of
the technical assistance provided by NHTSA to state and local governments. (Safety)


 Research and Special Programs Administration:

 ■  Review DOT’s implementation of President Clinton’s recent directive to strengthen the Federal pipeline
safety program and improve pipeline safety nationwide, including timeliness of key rulemakings. (Safety)


 Federal Aviation Administration:

 ■   Evaluate FAA’s efforts to identify and deploy new technologies to reduce runway incursions and evalu-


                                                                                                             15
 Office of Inspector General
 Work Planned and in Progress

 ate the agency’s efforts to reduce operational errors. (Safety)

     ■   Assess the progress of FAA’s deployment of explosive detection equipment and whether cargo security
 requirements are adequate to prevent explosive devices and other contraband from being transported on
 commercial aircraft. (Safety & National Security)

     ■   Assess acquisition, development and deployment strategy of FAA’s technology programs, such as Free
 Flight Phase One, Wide Area Augmentation Systems, Automatic Dependent Surveillance-Broadcast, and
 new weather systems, that are designed to enhance the capacity of the National Airspace System, improve
 the flow of air traffic, and help reduce flight delays. (Mobility and Safety)

    Determine the effectiveness of FAA’s efforts to deploy STARS on schedule and within budget.
     ■
 (Mobility)

     Assess FAA’s progress in implementing its Air Transportation Oversight System and identify any barri­
     ■
 ers to successful implementation. (Mobility and Safety)

    Determine the effectiveness of plans by 17 airlines to improve customer service and assess the extent to
     ■
 which actual or potential barriers exist to consumer access to independent comparative ticket prices and serv­
 ice information. (Mobility and Economic Growth & Trade)

    Provide oversight of airport infrastructure projects authorized under AIR-21, including audits of cost
     ■
 schedules, project management oversight and tools to prevent and detect waste fraud and abuse. (Mobility,
 Corporate Management)

    Assess whether negotiated workplace changes in the Department’s contract with its air traffic controllers
     ■
 have been effectively implemented at field locations, and whether anticipated cost savings from projected
 productivity gains are being realized. (Corporate Management)

     Determine whether FAA’s telecommunications acquisition project reflects current and future user
     ■
 requirements and provides sufficient security for the transmission of air traffic control and administrative
 data on the same network platform. (National Security and Corporate Management)

    Evaluate whether pay disparities exist between Air Traffic Managers, supervisors and specialists and the
     ■
 controllers they supervise and if limiting FAA’s MS&S pay system to field locations has had an impact on
 the staffing, management and oversight of the air traffic control system. (Corporate Management)


16
                                                                                          FOCUS:


Limited Progress in Disposing of Obsolete Vessels

T    he Maritime Administration (MARAD) is required to dispose of obsolete vessels in the National Defense
    Reserve Fleet (NDRF). Currently, the NDRF consists of 115 vessels designated for disposal, most of
which are deteriorating, contain hazardous substances, and pose an immediate environmental threat.

 The approach of selling MARAD’s vessels in the domestic market has not worked. Since 1995 only seven
of these vessels have been scrapped. The Department faces a challenge in determining how to dispose of
MARAD’s fleet of environmentally dangerous vessels in a timely manner. Key factors contributing to the lack
of progress are: 1.) The loss of overseas markets due to concerns about worker safety and the environment;
2.) Current limits on domestic capacity for scrapping, and 3.) A
Navy pilot project that pays contractors to scrap its vessels.

  We included this issue in our list of DOT’s top 12 management
issues in December 1999. We testified before the Congress three
times during the reporting period before the House Budget and
Transportation committees and the Senate Committee on
Commerce, Science, and Transportation.

 In each of the testimonies, we
called for prompt development
and implementation of a plan that
identifies methods and milestones
for disposing of all obsolete vessels
in the fleet. Such a plan should pri­
oritize disposing of those ships that are in the worst condition. We also urged MARAD to develop a proposal
for submission to Congress seeking approval and funding for a project to pay contractors for vessel scrapping.

 Because of these heightened concerns, we are monitoring MARAD’s efforts towards reducing the number
of obsolete vessels.

 In September, MARAD announced plans to begin scrapping several of the vessels moored in the James River
near Newport News, VA. The agency obtained funding for a $10 million pilot program to help cover the cost
of scrapping those ships in the United States as part of a recently passed Defense Department appropriations
bill. ■


                                                                                                            17
 FOCUS:


 Flight Delays, Cancellations, and Customer Service


 I    ncreasing numbers of flight delays and cancella­
   tions in recent years have fueled in large part the
 public’s dissatisfaction with the major Airlines. In
                                                              percent increase (from 91,905 to 154,311) in can­
                                                              cellations over the same period. These trends wors­
                                                              ened during the first 7 months of 2000, with delays
 response, Congress requested that OIG look into              and cancellations up 11 and 10 percent, respective­
 the causes of flight delays and cancellations and the        ly, over the same period in 1999. Overall, we found
 efforts being undertaken by the Airlines to improve          that nearly 1 in 4 flights either arrived late or was
 customer service, including implementation of the            cancelled in 1999, with the average delay totalling
 Airline Customer Service Commitment agreed to                almost 50 minutes.
 by 17 major carriers in 1999.                                 The delays and cancellations are symptoms that the
                                                              nation’s aviation system is reaching capacity. Another
     During the 6 month period ending September 30,
 we issued one report and testified twice before
 Congress on flight delays and cancellations. We also
 released an interim report on the Airlines’ efforts to
 improve customer service.

     Statistics graphically illustrate the magnitude of the
 problem. Between 1995 and 1999, the Federal
 Aviation Administration reported a 58 percent
 increase (from 236,802 to 374,116) in delays. The
 Bureau of Transportation Statistics reported a 68




18
symptom is the increase in safety incidents. Runway       tions governing the air carrier data submissions to
incursions, which are incidents on the ground that        DOT “… to disclose more fully to the public the
create a collision hazard increased
34 percent between 1995 and 1999.
                                           Web is Changing Ticket Purchasing Patterns
Operational errors, which occur


                                        T
when air traffic controllers allow           estifying July 20 before the Senate Committee on Commerce,
planes to get to close to each other,         Science, and Transportation, we said that the rapid growth of
increased 23 percent between Fiscal     airline ticket sales over the Internet offers potential benefits to con­
Years 1996 and 1999.                    sumers, but also poses some challenges and risks. Marketplace
                                        changes and technological innovation are rapidly eclipsing rules that
 Over the past year, DOT has
                                        apply to airline computer reservation systems. DOT should revisit
announced a number of actions to
                                        these rules without further delay.
address the growth of flight delays
and cancellation, including the                                             Ticket sales over the Internet have
Spring/Summer 2000 initiative                                             increased from less than half of one
for managing air traffic. The                                             percent in 1995 to an estimated six
Secretary has also formed task                                            percent as of mid-2000. These sales
forces to: determine the causes of                                        are expected to grow to at least 11
delays and cancellations; identify                                    percent by 2003. Airlines are encour­
best practices in providing better      aging that growth by offering deeply discounted “e-fares” available
information and service to air trav­    only on their web sites. These sales can result in cost savings of 75 per-
elers, and; expedite investment in      cent or more, but consumers must be web-savvy to find these deals.
technology and infrastructure.          The consumer who “clicks” on the wrong fare search button could
                                        wind up paying over 1000 percent more for the identical itinerary.
Understanding the Causes of
Delays and Cancellations                 In October, the Department issued an order requiring airlines to tell
 A major finding of our work, and       customers seeking the lowest fare available for a flight that it may only
one to which urgent attention is        be offered through the carrier’s Internet site.
required, is the absence of a system
                                          Orbitz, the new Internet travel agency jointly owned by several major
for collecting causal data and
                                        airlines, could potentially benefit consumers and airlines, but certain
reporting a reasonably complete
                                        competitive issues must be reviewed. Orbitz promises to provide a
picture of the causes of delays and
                                        wider range of fare options, bias-free displays and reduced booking
cancellations. This was reinforced
                                        fees, but possible anti-competitive issues such as airlines potentially
by Congress in the Wendell H.
                                        restricting their lowest fares exclusively to Orbitz must be resolved.
Ford Aviation Investment and
Reform Act for the 21st Century           DOT and the Department of Justice need to evaluate the poten­
enacted in April. The new law           tial long-term benefits of Orbitz on the marketplace and determine
directs the Secretary of Trans-         whether prior intervention is needed to protect competition and
portation to modify existing regula-    consumers.


                                                                                                                     19
 FOCUS:


 nature and source of delays and cancellations experienced by air travelers.” DOT cannot understand the
 causes of delays and identify effective long-term solutions for delays until better data are available.

     In testimony before the Senate Committee on Commerce, Science and Transportation in September, we
 cited the need for a set of capacity benchmarks for the Nation’s top airports. A set of capacity benchmarks is
 essential in helping understand the true impact of airline scheduling practices and what relief can realistically
 be provided by new technology, revised air traffic control (ATC) procedures, and runway and airport infra­
 structure enhancements. We also discussed the need to determine exactly what impact ATC modernization
 will have on airport capacity and the traffic load in the short, intermediate, and long terms.

 Congress Airs Concerns on Airline Customer Service

  Congressional concern over increasing complaints in air travel soared following the January 1999 incident
 at the Detroit Metro Airport in which hundreds of passengers were stuck in planes on snowbound runways
 for up to 8 hours. Lawmakers debated whether to enact a “Passenger Bill of Rights.” Hearings were held
 in both the House and Senate to discuss the treatment of aviation passengers and specifically the “Passen­
 ger Bill of Rights.” Congress put legislation on hold after 17 major airlines agreed on June 17, 1999 to vol­
 untarily adopt an Airline Customer Service Commitment pledging to improve air travel. The airlines agreed
 to develop individual customer service
 plans to implement the Commitment              Air Travel Consumer Report — 1999 Complaints
                                                                          7%
 and to cooperate fully in any request
 from Congress for periodic review of                8%
 compliance with the Commitment.                                                                           35%

   The Commitment addresses such
 matters as improved communication
 with passengers, quoting the lowest           14%

 available airfare and meeting passen­
 gers’ essential needs during long on-
 board delays. However, the Commit­
 ment does not directly address under-
 lying reasons for customer dissatisfac­
                                                          16%
 tion, such as extensive flight delays,                                                                    20%
 baggage not showing up on arrival,


20
long check-in lines, and high fares in certain mar­        We also noted several other important factors con-
kets. Until the Airlines, FAA, and others effective­      cerning customer service. Each Airline needs to have
ly address these areas, we believe there will contin­     a credible tracking system for compliance with the
ue to be discontent among air travelers.                  Commitment. The Airlines also need to ensure that
                                                          non-Airline employees who interact with passengers
 Airlines have also implemented other initiatives to
                                                          are trained on the Airlines’ plans because non-Airline
improve customer comfort and convenience. These
                                                          personnel such as skycaps are often mistaken for
initiatives include reconfiguring airplanes to increase
                                                          Airline employees. We found that some Airlines’
the room between rows of seats and replacing over-
                                                          contracts of carriage terms were less advantageous to
head luggage compartments with large, easier to use
                                                          passengers than the provisions found in the Airlines’
storage bins.
                                                          Plans. Finally, we are concerned that oversight and
  In June, we reported our preliminary results in         enforcement expectations for DOT, the agency
our Interim Report on the Airline Customer                responsible for airline consumer protection, may sig­
Service Commitment. In our initial observations           nificantly exceed its capacity to handle the workload,
and testing, we found the Airlines are making a           since staff has significantly declined over the years.
clear and genuine effort at strengthening the
                                                           Congress directed that we issue a final report on the
attention paid to customer service, but bottom-
                                                          effectiveness of the Airlines’ Plans to improve cus­
line results are mixed, and the Airlines have a long
way to go to restore customer confidence. The re­         tomer service, including recommendations for
sults include areas where the Airlines can improve        improving accountability, enforcement, and protec­
upon disclosures provided passengers, such as fare        tions afforded to commercial air passengers. By
and refund availability, and required check-in            December, the Airlines will have had a full year in
times.                                                    which to fully implement their Plans.■


                                                                                                                   21
 The Six Months
 April 1, 2000-September 30, 2000





22

                                                                                                   April



Improvements Needed in Aviation Security                                                              April 6
 Airport operators, airlines and airport users need to
improve compliance with Federal regulations mandating
background investigations for granting access to secure
areas of airports, Alexis Stefani, Assistant Inspector
General for Auditing said in testimony before the Senate
Commerce Committee’s Aviation Subcommittee.
Stefani said the FAA needs to deploy technology that
trains screeners in identifying threatening items in pas­
senger baggage and establish a strategic plan that inte­
grates employees and technology into a comprehensive,
seamless security program.


Man Sentenced in Tank Truck Welding Fatality                                                         April 7
 Carl B. Johansson was sentenced to 15 months in prison by a U.S. District Court judge in Los Angeles for
violating Federal transportation and hazardous materials laws that resulted in the death of a welder.
Johansson pleaded guilty to violating Federal hours of service regulations limiting the amount of time a driv­
er can spend behind the wheel of a truck. He also failed to obtain proper certifications for the repair of a
gasoline tanker. A welder hired to repair a leaking gasoline tanker at Johansson’s trucking facility was killed
                                      in an explosion ignited by his welding torch inside the tanker. OIG
                                      investigated this case with the FMCSA, FBI, and the California
                                       Highway Patrol.


                                       DOT Spent Y2K Compliance Money Properly                   April 11
                                         The Department properly spent $227 million appropriated for it in
                                       Fiscal Year 1999 to address anticipated Year 2000 computer prob­
                                       lems. About 94 percent of these funds were for the FAA and the
                                       U.S. Coast Guard. Both agencies maintained adequate internal
                                       controls over these funds. We identified four FAA procurements
                                       totaling $3.6 million that were not directly related to Year 2000
                                       preparations, but which fell within the discretion of the agency as
                                       provided under law.



                                                                                                                23
 Van Line Owner Jailed                                                                         April 12
  Yaron Tishby, president and owner of All American Van Lines of Pembroke Park, FL, was sentenced in U.S.
 District Court in Miami to 5-1/2 years in prison and ordered to pay $1.5 million in restitution. He was
 ordered to report to the Immigration and Naturalization Service for deportation hearings following his sen­
 tence. Tishby pleaded guilty to violating Federal transportation-tariff laws, hiring illegal aliens, and illegally
 possessing a firearm. Tishby induced customers with low estimates and then grossly inflated costs of moves
 after customers’ household goods were in the company’s possession.


 FAA Contract Tower Program Examined                                                      April 12
                              Contract towers — air traffic control towers at relatively low-traffic
                                        airports staffed by non-FAA personnel — continue to provide cost-
                                        effective services that are comparable in quality and safety to those pro­
                                        vided at FAA-operated towers, our audit found. Users remain sup-
                                        portive of the program, and previously identified staffing shortages
                                        have been addressed. We also found that an FAA study did not fully
                                        consider several key factors involved in expanding the program that
                                        should be further analyzed and reported to Congress. We recom-
                                        mended that FAA revise its study of expanding the contract-tower pro-
                                        gram to provide Congress with a better perspective of the feasibility,
                                        costs, and benefits of expanding the program.




 Restitution and Probation Ordered in Illegal Hazmat-Shipment case                                      April 13
   The president of a firm that attempted to secretly airfreight hazardous mate-
 rials in violation of Federal law was ordered to serve 3 years’ probation and pay
 $4,920 in restitution by an U.S. District Court judge in Miami. Alejandro O.
 Craig, president of Alpa International, Inc., was also ordered to report for
 deportation proceedings. Employees of the air carrier LANChile discovered
 the hazardous materials in July 1999 while loading an aircraft; the goods had
 been packaged to conceal the hazardous nature of the cargo. OIG investigat­
 ed the case with assistance from FAA and the Miami Police Department.


 NTSB’s Rapidraft System Needs Stronger Controls                                              April 13
  An audit of the National Transportation Safety Board’s Rapiddraft system identified significant inter­
 nal-control weaknesses. The audit of the third-party check system intended for use by NTSB investiga­
 tors to obtain services at accident investigation scenes was requested by the Safety Board’s chairman
 after irregularities were found in August 1999. A simultaneous investigation by OIG and the FBI found


24
                                                                                                 April



that two former NTSB administrative employees embezzled approximately $95,000 through the
Rapidraft system. The IG testified on the audit and NTSB’s corrective actions, which included cancelling
the Rapidraft System, before the House Budget Committee’s Task Force on Housing and Infrastructure.


                       Baggage-Handlers Sentenced in Airport Security Case April 18-May 4
                        Ricky B. Garner, Ronald Darby and Thomas Jacobs, baggage-handlers for
                       American Airlines at the Dallas/Fort Worth International Airport, were sentenced
                       by an U.S. District Court judge in Fort Worth, TX, for aiding the circumvention
                       of airport security. Garner was given 5 years in prison. Darby was fined $1,000 and
                       placed on 5 years’ probation and Jacobs was placed on 5 years probation. The men
                       pleaded guilty to allowing unauthorized persons to use their security badges to
                       bypass airport security in exchange for bribes. A separate indictment charges drug
                       dealers with using the security badges to transport cocaine on passenger planes.
                       The investigation was conducted with DEA.


Cost Doubles for Pennsylvania Station Redevelopment                                           April 19
 The cost of New York City’s Pennsylvania Station redevelopment has increased and its completion date
has slipped, our audit found. The current $768 million cost of the project is more than twice the orig­
inal 1992 estimate. The project is currently slated for completion in 2005, 6 years later than planned.
In addition, Amtrak and other railroads have identified, separately from the project, $804 million in
needed safety improvements in tunnels and areas beneath Pennsylvania Station. The Federal Railroad
Administration must work with these parties to identify funding sources to ensure these requirements
are completed in a timely manner.FRA is working with the Office of Management and Budget to address
this issue in the President’s Fiscal Year 2002 budget request.


                      Better Data Needed In Boat Safety Program                                    April 20
                        The U.S. Coast Guard is using inaccurate data to measure its performance in reduc­
                      ing recreational boating fatalities, our audit found. The Coast Guard also has not
                      established criteria for monitoring the effectiveness of state recreational boat safety
                      programs, and the formula for distributing funds does not consider the states’ effec­
                      tiveness in reducing fatalities. The Coast Guard agreed to improve data accuracy,
                      develop a plan for monitoring state boating-safety programs, and develop a propos­
                      al for incentive funding.

                                                                                                            25
 Bay Area Rapid Transit Finance Plan Reasonable                                                    April 21
  A proposal by the Bay Area Rapid Transit District (BART) to extend
 rail mass-transit service to San Francisco International Airport and pro-
 vide additional service in San Mateo County accurately portrays costs to
 complete the project and the manner in which BART expects to finance
 the project, our audit found. BART provided the Federal Transit Ad-
 ministration with a revised finance plan that increases the project budg­
 et by $316 million, establishes a capital-reserve account of $27 million,
 substitutes a $70 million shop- and yard-improvement program for new
 vehicles budgeted to cost $100 million, and extends the project’s rev­
 enue operation date by 9 months.


 Wife of FHWA Official Sentenced to Prison in Kickback Scheme                                  April 28
  The wife of an FHWA engineer was ordered jailed for 30 days by an U.S. District Court judge in
 Alexandria, VA., for her role in a kickback scheme. Brenda Clark was also ordered to pay $23,000 in resti­
                                                                   tution to DOT. James Clark maintained
                                                                     authority over FHWA contractors. In
                                                                     exchange for awarding contracts, he and
                                                                     his wife solicited and received approxi­
                                                                     mately $150,000 in personal loans and
                                                                     consulting contracts using a series of
                                                                     pass-through companies to conceal
                                                                     their activity. James Clark previously
                                                                     pleaded guilty to bribery and wire fraud.
                                                                     OIG investigated this case with the FBI.
                                                                     ■




26
                                                                                                  May



                      Cost Overruns Increase Price of Central Artery Project                         May 3
                       Continuing construction cost
                      overruns on Boston’s Central
                      Artery project have raised the
                      expected cost of the project to
                      as much as $13.6 billion, the IG
said in testimony before the Senate Commerce Com­
mittee. Project managers failed to disclose the rising
cost trends in finance plans and manipulated data to
prevent detection. This occurred because FHWA’s
guidance on finance plans was inadequate to ensure complete and accurate financial reporting. As a result,
the project’s finance plan understated construction costs by at least $942 million. Following our Feb. 10
report on the project, the Secretary of Transportation directed FHWA to implement our recommendation
that the agency issue comprehensive guidance specifying minimum reporting requirements for finance plans.
In response, FHWA issued new guidance and finance plans and entered into an agreement with the state of
Massachusetts to limit the Federal contribution to the project to $8.549 billion.


Defendant in Chop-Shop Probe Sentenced for Fraud                                                    May 5
 Dorin Bosancu was ordered imprisoned for 21 months and to pay $35,748 in restitution by an U.S.
District Court in Seattle following his guilty plea to bank, mail and wire fraud charges and engaging in ille­
gal monetary transactions. Bosancu defrauded insurance companies by stripping vehicles of parts and then
claiming the parts were stolen; the removed parts subsequently were sold. OIG, the FBI, the U.S. Coast
Guard, the U.S. Customs Service, the INS, and the Washington State Highway Patrol investigated the case.


Former FAA Employees Sentenced in Fraud Cases                                                     May 11
  Former FAA electronics technician Charles Goffi was sentenced to 6 months home confinement and
required to resign his FAA job by a U.S. District Court judge in Brooklyn, NY after pleading guilty to filing
$32,800 in fraudulent travel-voucher claims. Goffi was ordered to reimburse the government for the money
stolen. Separately, former FAA accountant Rodney D. Davis was sentenced to 6 months in jail and ordered
to pay $28,000 to the agency in restitution for the funds he embezzled by accessing a protected computer
without authorization and transferring funds from FAA into his own checking account. Davis resigned while
he was being investigated. The case was investigated by OIG and prosecuted by the Department of Justice.


                                                                                                             27
 Changes Needed in FAA’s Use of RTCA as Advisory Committee                                          May 11
     While RTCA, Inc. has made valuable contributions as a federal advisory organization in helping FAA shape
 the direction of air traffic control modernization initiatives, the lines have blurred between RTCA giving
 advice and providing elements of program decision-making and management, we found in this audit. We
 recommended that FAA officials no longer serve in voting and decision-making roles on RTCA boards,
 committees, subcommittees, and working groups; that RTCA adopt policies to ensure potential conflicts of
 interest and paid representation are disclosed and properly addressed; and RTCA provide adequate infor­
 mation to the public about closed meetings. FAA agreed to implement our recommendations and has taken
 steps to provide information to the public via the Internet.


 Recommendations Made on Pipeline Safety Program Reauthorization                                    May 11
                                                                     The Research and Special Programs
                                                                    Administration needs to implement
                                                                    critical safety regulations for hazardous
                                                                    liquid and natural gas pipelines mandat­
                                                                    ed by Congress in 1992, the IG said in
                                                                    testimony before the Senate Committee
                                                                    on Commerce, Science and Transpor­
                                                                    tation. Other needed improvements
                                                                    include expanding pipeline safety
                                                                    research and development on pipeline
                                                                    inspection technologies; improving the
                                                                    collection of pipeline accident data and
                                                                    enhancing the training of pipeline
                                                                    inspectors and operators. P re s i d e n t
                                                                    Clinton directed the Secre t a ry to
                                                                    implement the Inspector General’s
                                                                    recommendations.


 Stronger Controls Needed on MARAD Contracts                                                        May 12
   While MARAD had implemented effective policies and
 procedures for awarding ship-manager contracts, our audit
 found MARAD has not consistently adhered to established
 procedures for overseeing management contracts. For
 example, MARAD paid for work before it was performed
 and did not ensure that subcontracts were awarded based
 on competition. MARAD took action to strengthen its con-
 trols for administering ship-managers’ and general-agency
 contracts.

28
                                                                                                 May



 Recommendations Made on MARAD Reauthorization                                                     May 16

                                                    The Deputy Inspector General testified May 16 before
                                                  the Senate Committee on Commerce, Science and
                                                  Transportation on the reauthorization of the Maritime
                                                  Administration. The statement involved three issues
                                                  addressed in recent audit reports: the Title XI loan guar­
                                                  antee to the Massachusetts Heavy Industries Quincy ship-
                                                  yard; MARAD’s growing inventory of obsolete vessels
                                                  and the need for a disposal plan; and internal controls
                                               over maintenance contracts for Ready Reserve Force ves­
                                               sels. The DIG told the committee that the Quincy ship-
yard had defaulted on its $55 million MARAD Title XI loan guarantee in January 2000. Considerable work
needs to be done to make the shipyard operational and the Environmental Protection Agency has advised
MARAD that there are environmental problems in the shipyard that require remediation. After MHI missed
its December 1999 payment, its bank made a payment demand on the loan guarantee. MARAD paid $59.1
million to settle the guarantee on February 25, 2000. The amount that MARAD can recover through liq­
uidation cannot be determined at this time. He also warned that MARAD would not meet its legislative
mandate to dispose of 115 obsolete vessels awaiting disposal at a profit and discussed the findings of a pre­
vious audit that recommended strengthening internal controls over maintenance contracts for ships in the
Ready Reserve Fleet. MARAD took action in response to recommendations contained in the reports that
were summarized in this testimony.


Minnesota Man Pleads Guilty to Shipping Undeclared Hazmat                              May 22
                                            Sean Barton turned himself in to federal authorities
                                           in Minneapolis, MN and pleaded guilty to shipping
                                           materials on commercial passenger aircraft without
                                           declaring the hazardous nature of the shipments.
                                           Barton had shipped large volumes of spray paint in
                                           cans and the express-shipping firms used to move the
                                           cargo were not informed of the hazardous nature of
                                           the shipments. OIG investigated the case jointly with
                                           the FBI and the FAA.


                                                                                                            29
 Better Computer Security Needed at FTA                                                             May 23
     Computer-security controls for a Federal Transit Administration financial-management computer system
                                                             were not adequate to ensure operational
                                                             integrity and continued operations, our audit
                                                             found. Using a widely known user identifica­
                                                             tion code, we were able to gain unauthorized
                                                             access to the system’s computer. We also identi­
                                                             fied seven system weaknesses and vulnerabili­
                                                             ties, which occurred because FTA had not
                                                             assigned a sufficient priority to computer secu­
                                                             rity. These security weaknesses could signifi­
                                                             cantly reduce FTA’s ability to carry out its busi­
                                                               ness mission and could cause FTA to lose its
 automated capabilities to maintain financial, project oversight, and operational control. FTA agreed with our
 findings and recommendations and has taken corrective actions.


 Sentencing in Fire Extinguisher Fraud Case                                                         May 24
  Peter C. Freund of East Hampton, CT,
 was sentenced to 4 months in jail, 4
 months home confinement and fined
 $5,000 after pleading guilty in U.S.
 District Court in New Haven, CT to mail
 fraud charges. Freund, as the owner and
 operator of AAA Fire and Safety — an
 inspection service for fire-protection sys­
 tems — caused fire extinguishers to be
 falsely stamped as having been hydrostati­
 cally tested and billed customers for the
 testing even though it had not been done.
 The investigation by OIG, the DCIS and
 the FBI arose from an RSPA referral. ■




30
                                                                                              June



Contractor Gets Five Years in Fraud Case                                                     June 5
                                                          Kermit Bunn, president of Bunn Construction
                                                         Company, was sentenced to 5 years’ imprison­
                                                         ment and fined $18,000 fine for fraud against the
                                                         Federal Disadvantaged Business Enterprise pro-
                                                         gram on five FHWA-funded subcontract projects
                                                         in West Virginia. Bunn also was convicted of
                                                         obstruction of justice in U.S. District Court in
                                                         Wheeling, WV for threatening the OIG special
                                                         agent investigating the case. OIG investigated
                                                         the case with the West Virginia Department of
                                                         Transportation.


Aviation Parts Manufacturer Gets Jail Time and Fines                                            June 13
 West Coast Aluminum Heat Treating Co. was fined $1.6 million by a U.S. District Court judge in Los
Angeles for falsely recording aircraft parts as heat treated and tested. Company president June Fitch was
ordered to pay a $70,000 fine and serve 3 years’ probation. Vice president Eugene Fitch was sentenced to
55 months in prison for his role in the crime. OIG investigated the case with the Defense Criminal
Investigative Service and NASA-OIG.


Airlines Fined For Obstructing Crash Probe                                                      June 20
  Fine Air Services, formerly known as Fine Airlines, was fined $3.5 million and Aeromar Airlines was
fined $1.5 million by a U.S. District Court judge in Miami, following their guilty pleas for their roles in
the August 7, 1997 crash in Miami of Fine Airlines Flight
101A. Fine Air was charged with obstruction of justice
and Aeromar, with falsification of documents. The two
cargo air carriers also must serve 4 years’ supervised pro­
bation and be under a court-approved, supervised air
safety program. The crash killed four crewmembers and a
man sitting in a car parked near the airport. OIG investi­
gated the case with the U.S. Customs Service and the
FBI.


                                                                                                          31
 Pair Sentenced in Water-Testing Case                                                             June 21
                  Glenn Kelly Johnson, owner and operator of the largest chain of wastewater treatment
                 facilities in Louisiana, and Carol Rowell, president of Enviro-Tech Labs, Inc., were sen­
                 tenced in U.S. District Court in New Orleans, LA for violations of the Clean Water Act.
                 Johnson was ordered to serve 3 years in prison, pay a $500,000 fine and restitution of
                 $250,000. Rowell received 4 months home confinement and was ordered to pay a $2,000
                 fine. Johnson failed to properly operate and maintain six wastewater treatment plants in and
                                       around Houma and Thibodaux, LA, which caused the discharge of
                                      untreated sewage into Louisiana’s Intercoastal Waterway. In an effort
                                      to conceal the poor maintenance and operation of the facilities,
                                      Johnson and Rowell submitted fraudulent discharge monitoring
                                      reports and laboratory analysis to the Environmental Protection
                                      Agency and the Louisiana Department of Environmental Quality.
                                      Johnson also attempted to impede the Federal investigation by offer­
                                      ing money to a cooperating witness in exchange for false testimony.
 Johnson also pleaded guilty in August to conspiracy to commit bank fraud in connection with a $1.2 mil-
 lion loan used to buy more than 60 private sewage treatment facilities. Johnson was sentenced to 51
 months’ incarceration and ordered to pay $1.1 million in restitution and $75,000 in fines on top of his ini­
 tial sentence. OIG investigated with the FBI, the U.S. Postal Service, and Louisiana Department of
 Environmental Quality.


 Road Construction Manager Gets Jail Term                                                        June 23
   David G. Webb, the former manager of a firm that contracted with the Virginia Department of
 Transportation on Federally-funded projects was ordered to serve 2 years in prison and to pay $435,038 in
 restitution for fraudulently inflating charges for aerial photography and ground surveys. Webb’s employer,
 Photogrammetric Data Service Inc. of Sterling, VA, was ordered to pay $435,038 in restitution, a $522,045
 fine and was placed on a year’s supervised probation. OIG and the FBI investigated the case.


 Airport Paving Contractor Agrees to Settle False Claims Suit                                      June 23
  Ball, Ball & Brosamer, a paving contractor for paving at two major airports, agreed to pay a settlement of
 $300,000 to dismiss a civil complaint. The company also
 agreed to pay $130,000 to the parties who advised the gov­
 ernment of the circumstances, to cover attorneys’ fees; those
 parties also will share equally in 22 percent of the settlement
 payment. It was alleged that Ball, Ball & Brosamer altered
 the concrete mix design without approval from the resident
 engineer on contracts at Denver International Airport and
 John Wayne International Airport in Santa Ana, CA.


32
                                                                                                  June



                                          Household-Goods Movers Sentenced               June 26
                                           Two men involved in a household-goods moving scheme in
                                          which customers’ goods were held for ransom were sentenced to
                                          33 months’ imprisonment and jointly ordered to pay $484,765 in
                                           restitution to victims following their guilty plea in U.S. District
                                          Court in Los Angeles. Micha Grinberg and Eddie Tsitron admit­
                                          ted defrauding customers, some of whom were federal goverment
employees, by offering a low bid to move goods, then upping the costs. Customers who refused to pay the
higher prices were unable to get their property back. On June 6, in a related case, Amir Ben-David of Prime
Moving and Storage was sentenced to 3 years’ probation, fined $5,000 and ordered to pay $14,500 in resti­
tution. OIG investigated this case with the U.S. Department of Agriculture and the U.S. Forest Service,
with assistance from FMCSA and the IRS’s Criminal Investigations Division.


Federal CDL Program is Not Disqualifying Unsafe Drivers                                      June 30
 The Commercial Driver’s License program has achieved its primary objective of limiting commercial driv­
ers to one license, we found in the first of a series of audits of the CDL program
requested by the House Committee on Transportation and Infrastructure.
However, Federal oversight of state CDL programs did not ensure that
unsafe commercial drivers were disqualified. When Federal oversight reviews
identified deficiencies in states’ CDL programs, available sanctions were not
imposed. The Federal Motor Carrier Safety Administration agreed there is a
need to strengthen the CDL program and concurred with all our recom­
mendations for improvement, and began implementation actions.


Manufacturing Manager Admits Selling Bogus Aircraft Parts                                            June 30
  David Taeschler, general manager of Tam Metal Products of Mahwah, NJ, pleaded guilty in U.S. District
Court in Trenton, NJ to charges of conspiracy to commit wire fraud for his role in a scheme to sell non-stan­
dard aviation parts. In 1996, Menasco, a Canadian company, ordered metal parts for Boeing 757 aircraft
wheel assemblies from Tam and specified that the parts were to be heat-treated by a Boeing-authorized
treater. Heat-treating strengthens certain aircraft parts. Tam did not get some parts heat-treated, but instead
faxed the Canadian firm a falsified certification that the parts had been heat-treated. The case was investigat­
ed by OIG, based on information received from the FAA. ■


                                                                                                              33
 July



 Bus Shelter Supplier Sentenced for Violating “Buy American Act”                             July 13
  Daytech Manufacturing, Inc., of Orchard Park, NY was sentenced in U.S. District Court in Buffalo, NY
 to 12 months probation and ordered to pay a $110,000 fine for falsely certifying to the Public
 Transportation Benefit Corporation of Snohomish County, WA, that it would comply with “Buy America
 Act” requirements on a proposal to supply bus shelters. The “Buy America Act” requires FTA grantee proj­
 ects to use components of United States origin or products manufactured in the United States. OIG inves­
 tigated this case jointly with the FBI and with assistance from the FTA.


 DOT Computer Security Needs Improvement                                        July 13
                                        DOT Headquarters’ computer networks had security
                                       weaknesses that made its computers and web servers
                                                    vulnerable to unauthorized access and attack by intrud­
                                                    ers, we found in reports issued on July 13 and Sept. 25
                                                    and our subsequent Sept. 27 testimony before the
                                                    House Committee on Science. The computer networks
                                                    are used to support transmission of critical administra­
                                                     tive and financial data such as payroll, grant payments,
                                                     safety statistics and research information throughout
                                                     DOT. Hundreds of DOT computers were accessible by
 unauthorized Internet users as well as being vulnerable to insider attack. Internet users were allowed to
 bypass DOT’s “firewall” security and gain access to DOT’s private networks. We also found that DOT
 web sites were vulnerable to attack. We recommended: strengthening personnel security for DOT employ­
 ees and contractor personnel authorized to access DOT systems; improving network security to prevent
 unauthorized access by Internet users or insiders; and increasing security on DOT’s web sites. DOT agreed
 with our results and is taking corrective actions.


 Couple Pleads Guilty In Avionics Repair Kickback Case                                              July 20
   Marshall and Helen Bryant pleaded guilty in U.S. District Court in Fort Worth, TX to violating the Anti-
 Kickback Act and to conspiracy to commit mail and wire fraud for their roles in a scheme to inflate avionics
 repair contracts. The Bryants created a front company, Silver Jade Business Services, which would send parts
 to a parts broker, which would then forward the repair work to another Texas repair station, RTS Services for
 repair. Marshall Bryant would authorize payment to RTS for an inflated price, then receive a kickback. Some


34
of the kickbacks involved repairs for FAA and USCG. On Aug. 22, RTS vice presidents Gertrude Sickler and
Timothy Couch were indicted on charges of money laundering and wire fraud for allegedly paying kickbacks
to the Bryants. OIG, FBI and the Defense Criminal Investigative Service are investigating the case.


Miami-Dade Aviation Department Receives $50,000 in Restitution                                     July 27
                           The Miami-Dade County Aviation Department received a $50,000 check from
                          Aviation Safeguards in partial payment of the $100,000 owed the department for
                          falsely certifying the completion of background checks on screeners who had
                          access to secure areas at Miami International Airport. OIG received assistance
                          from FAA in this investigation.


                          FAA Needs to Expand Oversight of WAAS Contracts                       July 28
                           It is unclear when the FAA’s new satellite-based navigation system (Wide Area
                          Augmentation System) will be avail-
                          able to provide pilots with precise
landing directions, according to testimony prepared for a June
29 House Aviation Subcommittee hearing. In addition to reduc­
ing contract expenditures until solutions to technical problems
are identified, the IG called for a series of Defense Contract
Audit Agency reviews of the WAAS contract. FAA agreed with
our recommendations and reviews of the WAAS contract, includ­
ing floor checks to assess labor charges, are underway. ■




Illinois CDL Prosecution Continues


T    he probe of the illegal sale of commercial drivers licenses by employees of the Illinois Secretary of
     State’s Office continued during the reporting period, with 9 people indicted, 7 convicted and 6 sen­
tenced between April 1 and Sept. 30.

 Since the investigation of the illegal sale of CDLs by Illinois Secretary of State employees to unqualified
individuals, dubbed “Operation Safe Road” began in October 1998, local, state and federal officials have
obtained evidence that at least 750 CDLs have been illegally issued. As of Sept. 30, 39 people have been
indicted, including two third-party testers operating a driving school in Florida who sold in excess of 2,000
CDLs through the Florida state-licensing program. Twenty-nine individuals have been found guilty since
the probe began. The ongoing probe is being conducted jointly by OIG, the FBI, the Postal Inspection
Service and the Internal Revenue Service.


                                                                                                             35
      Other highlights of the investigation during the reporting period include:

     ■ The June 5 conviction by a Federal jury of Alex McLeczynsky, a trucking company instructor on charges
 of extortion, racketeering and conspiracy. McLeczynsky accepted $1,200 to $1,500 per applicant to assure
 that “sponsored” applicants passed both written and driving portions of the exam. McLeczynsky then would
 pay Illinois Secretary of State managers a portion of each applicant’s bribe.

     ■ The 6 month jail term and deportation order handed Medbadreddin Djebli, an Egyptian citizen on Aug.
 2 in U.S. District Court in Chicago following his guilty plea to counterfeiting Illinois driver’s licenses, Social
 Security cards and immigration visas. Based on a OIG Hotline call, agents discovered Djebli and others had
 bribed Illinois Secretary of State employees to obtain driver’s licenses that allowed illegal immigrants to work
 in the United States. Djebli agreed to provide information on co-conspirators after OIG and U.S.
 Immigration and Naturalization Service agents arrested Djebli earlier this year. The FBI also participated in
 the investigation.

  ■ A July 18 indictment by a Federal grand jury in Chicago expanded the corruption charges brought against
 former state Inspector General Dean Bauer in February. The former state watchdog is charged with racket­
 eering, mail fraud, obstruction of justice, and making false statements to the FBI for allegedly covering up
 bribery and other corruption by state employees . The grand jury also indicted five additional driving instruc-
 tors for paying bribes to state employees to guarantee that their students would pass their road tests.

  ■ The Aug. 30 sentencing of veteran commercial drivers license supervisor Kenneth Golumb to 33
 months in prison and a $20,000 fine after pleading guilty in U.S. District Court in Chicago to accepting
 bribes to pass people taking their CDL road tests. Golumb, a 26-year veteran of the Illinois Secretary of
 State’s Chicago West Side facility, collected more than $120,000 in bribes (an average of $180 per day)
 during a two-year period.

  ■ The Sept. 5 guilty pleas by driving school instructors Valdez Araceli and Cristobal Gonzalez in U.S. District
 Court in Chicago to perjury and bribery charges involving the sale of drivers licenses to unqualified drivers.

  ■ The Sept. 7 conviction of Bhurat Patel, owner of the defunct New Delhi Driving School on charges of
 bribing at least seven road-test examiners at the Chicago West licensing facility in 1998 and 1999.

   ■ The sentencing of Waitung “Tony” Chan to five
 months in prison by a U.S. District Court judge in
 Chicago on Sept. 14. Chan, former owner of
 Advance Driving School in Chicago was also fined
 $3,000 for falsifying road exams for more than 170
 unqualified motorists, including 20 who fraudulent­
 ly obtained CDLs.




36
                                                                                     August



Transit Authority Employee Pleads Guilty to Stealing Fares                                   Aug. 4
 David Gast pleaded guilty in U.S. District Court in Cincinnati, OH to stealing $120,000 in bus fares
from Cincinnati’s Metro bus system
between May 1996 and October
1999. As a principal driver, Gast
transported cash fare vaults to the
bank for deposit from Metro, an
FTA-funded entity. Metro auditors
contacted federal authorities for
assistance after an audit identified
fare shortages. OIG and the FBI
planted 1,000 one dollar bills
marked with invisible ink and detec­
tion powder in the portable vaults.
These bills were ultimately traced to
Gast’s personal bank account.


Company Owner Sentenced in Fire Extinguisher Cylinder Fraud Case                        Aug. 7
                     Martin Albert, proprietor of Flashover Fire Equipment, Inc., was sentenced
                    by a state superior court judge in New York to his choice of 6 months in
                            prison or 840 hours of community service and ordered to pay $40,000 resti­
                            tution for falsely stamping DOT re-tester numbers belonging to another
                            company onto school district fire extinguishers. Albert and the now-defunct
                            Flashover Fire Equipment pleaded guilty earlier in 2000 to state charges of
                            fraud, larceny, and forgery. OIG investigated this case with the Suffolk
                            County, New York, Police.




Third Party CDL Testers Sentenced for Falsifying Test Results                                 Aug. 7
  Two brothers were placed on 3 years’ probation after pleading guilty in U.S. District Court in
Wilmington, NC to charges of falsifying test results of commercial driver’s license applicants. Leroy
Searsey was also placed on six months home confinement. He and Elmer Searsey were also ordered to

                                                                                                      37
 jointly pay $17,649 in restitution to the state of North Carolina for the retesting of more than 200 truck
 drivers who improperly received CDL licenses. OIG investigated this case along with the North Carolina
 Department of Motor Vehicles.


 Trucking Company Fined for Hours of Service Violations                                           Aug. 8
     Ameri-Cana Transport, Inc, was ordered Aug. 8 by a U.S. District Court judge in Portland, ME to
 pay a $45,000 fine after pleading guilty to causing the falsification of log books of its truck drivers.
 The company also agreed to cease trucking operations and indicated that it was liquidating its assets.
 Ameri-Cana created approximately 100 false logs over a one-year period to understate the amount of
 time worked by its drivers. OIG investigated this case along with the Maine State Police and the
 FMCSA.


 Former NTSB Employee Jailed for Rapidraft Scheme                                           Aug. 10
  Delia Jones was sentenced to 10 months incarceration and ordered to pay $74,095 in restitution by a
 U.S. District Court judge in Washington,
 DC after pleading guilty to charges of steal­
 ing government funds. While employed as a
 secretary for the National Transportation
 Safety Board, Jones embezzled over
 $74,000 using the Board’s third-party check
 writing system, known as the Rapidraft
 Payment System. The Rapidraft Payment
 System was established to provide investiga­
 tors a method to quickly procure materials,
 equipment and services needed during the
 course of accident investigations. OIG inves­
 tigated this case with the FBI.


 Fraudulent DBE Contractors Sentenced                                                          Aug. 11
  Executives of two engineering firms were fined and placed on home confinement for defrauding the
 Federal Highway Administration’s Disadvantaged Business Enterprise program. Paul Carey, co-owner
 of MTA, Inc., was sentenced to 6 months’ home confinement and ordered to pay $40,000 restitution
 and $22,826 in fines by a U.S. District Court judge in Springfield, IL for claiming that MTA used
 Hsiong Associates as a minority subcontractor in order to meet FHWA’s DBE program goals. MTA
 employees conducted the work on the Federal highway projects and the time sheets would be changed
 to reflect that the employees worked for Hsiong. Hsiong President Nancy Boyer was sentenced to 3
 months’ home confinement and ordered to pay $12,250 restitution for her role in the crime. Upon sen­
 tencing on the Federal charges, the state of Illinois agreed to accept a payment of $141,446 to recoup


38
                                                                                 August



the money stolen from the state construction program. OIG and FBI investigated the matter based on
a referral from the Illinois Department of Transportation.


SabreTech Sentenced in ValuJet Crash Case                                                Aug. 14
 The company convicted in 1999 for its role in the 1996 crash of a ValuJet plane in the Florida
Everglades was ordered to make $9,064,000 in resti­
tution to family members and victims of the crash and
to pay $2 million in criminal fines. SabreTech, Inc.
was also placed on 3 years probation and ordered by
an U.S. District Court judge in Miami to implement
a comprehensive safety program. The investigation
was conducted jointly by OIG and FBI and was pros­
ecuted by the United States Attorney’s Office in
Miami.


Guilty Pleas in Pensacola Dumping Case                                                   Aug. 23
 A Florida company and several of its employees
pleaded guilty in U.S. District Court in
Pensacola, FL, to charges of violating the Clean
Water Act. Oderbrecht-Metric, Inc. and company
employees, Steven Spry, Frank R. Doddi and
Marcellino Romero admitted to dumping
cement, bridge pilings and reinforcement bars
into Pensacola’s East Bay during construction of
the Garcon Point Bridge. Oderbrecht agreed to
pay more than $4.2 million in fines, site cleanup
costs, restitution and payments to an environ-
mental crime trust fund. OIG, the Coast Guard
Investigative     Service,   EPA’s      Criminal
Investigation Division, the FBI and the Florida
Department of Environmental Protection partici­
pated in the investigation.


                                                                                                 39
 Los Angeles Subway Contractor Pleads Guilty                                                       Aug. 28
                                               William H. Benson, manager of inspection services for
                                              Twinning Laboratories of Southern California Corp. pleaded
                                              guilty Aug. 28 in U.S. District Court in Los Angeles to
                                              charges of submitting false non-destructive testing examina­
                                              tion certifications to the Metropolitan Transportation
                                              Authority. The transit authority had contracted with Twinning
                                              to test the integrity of welds of various portions of the Metro
                                              Red Line, also known as the Hollywood Corridor project.
                                              The Metro Red Line is a $1.45 billion project receiving $695
                                              million in funds from the Federal Transit Administration.
 Separately, the U.S. Attorney’s Office on Aug. 29 filed a civil complaint against Twinning alleging the com­
 pany conducted fraudulent inspections of defective welds at two subway stations in the Hollywood area. The
 case was investigated with the FBI and the MTA-OIG.


 FAA’s Procurement System Needs Improvement                                                Aug. 29
                             FAA’s Integrated Product Development System (IPDS), a key team
                            concept of FAA’s new Acquisition Management System designed to
                            reduce the cost and time to field new air traffic control systems, is not
                                     working as intended. FAA continues to operate by vertical manage-
                                                    ment hierarchy, also called “stovepipes,” which limits
                                                    the effectiveness of IPDS team operations. Our sur­
                                                     vey of IPDS team members found that improvements
                                                     are needed to address additional IPDS training, orga­
                                                     nizational barriers to communicating, and the lack of
                                                     authority to make program decisions. Team members
                                                     also perceived that FAA’s senior management was not
                                                     fully supportive of IPDS. FAA provided additional
                                                     IDPS team training and is developing agreements with
                                                     the unions and key associate administrators that include
                                                     revised decision-making processes. ■




40
                                                                                September



Truck Driver Pleads Guilty to Filing False Certification                                       Sept. 1
 A former driver for Speidel Transportation pleaded guilty in U.S. District Court in St. Louis to falsify­
ing his medical history to obtain a commercial driver’s license. In 1998, Dennis Auten’s tractor-trailer
crashed into a passenger vehicle, killing its two occupants. An investigation of Auten’s DOT medical cer­
tification found that he had lied during his medical examination by hiding a pre-existing medical condi­
tion involving seizures, convulsions and fainting spells. OIG investigated this case with the FMCSA.


St. Louis Business Sentenced for Shipping Undeclared HazMat                                         Sept. 1
 A St. Louis restaurant was fined $100,000 in U.S. District Court in St. Louis after pleading guilty to
charges of shipping undeclared flammables via Federal Express. Banana Joe’s of St. Louis, Inc., pleaded
guilty earlier in 2000 to attempting to illegally ship propane cylinders and several cases of paint to one of
its restaurants. Federal Express discovered the undeclared hazardous material and rejected the shipment.
Banana Joe’s then re-packaged the material in unmarked boxes and again attempted to ship them. A
Federal Express aircrew discovered the shipment when they smelled fumes from the boxes in the belly of
the aircraft. The flight crew removed the boxes and OIG agents seized them. OIG investigated this case
with FAA.


Contractor Pays $112,000 to Settle False Certifications Case                                        Sept. 6
  Paul Vibhandik, president and owner of Communications Network Systems, Inc. was ordered by a U.S.
District Court judge in Seattle to pay a settlement of $112,000 after pleading guilty to charges of engaging
in deceptive pricing and submitting false claims on two contracts awarded by the FAA for digital computer
systems at Denver International Airport. OIG investigated this case with the FAA.


                            Former NTSB Employee Sentenced For Theft of Rapidrafts Sept. 7
                               Michelle E. Prentice, a former administrative assistant in NTSB’s Southeast
                            Region was sentenced in U.S. District Court in Atlanta to 6 months’ home con­
                            finement and 5 years’ probation. Prentice pleaded guilty in June to embezzling
                            NTSB funds in the Rapidraft payment system by converting Rapidrafts (similar
                            to bank checks) totaling approximately $21,000 to her own use. As part of her
                            sentence, Prentice was also ordered to pay $20,183 restitution to NTSB.




                                                                                                           41
 Construction Company and Owner Debarred in Fraud Case                                Sept. 7
  As a result of a criminal investigation conducted by OIG and FBI, the FAA debarred Max South
 Construction, Inc., of Miami, and its owner and president, Eric Pitchman, from Government contracting
 and subcontracting until Sept. 7, 2003. In March, Pitchman was sentenced to 12 months in jail. He was
 also fined $30,000 for submitting an application and certificate for payment to the FAA that incorporated
 more than $40,000 in inflated change orders on a contract to renovate FAA’s Air Route Traffic Control
 Center in Miami. OIG investigated this case with the FBI and assistance from FAA.


 Airport Security Employee Sentenced for Falsifying Records                                            Sept. 8
                                                Sandra Lawrence, former administrative assistant of
                                               Argenbright Holdings LTD., was placed on 5 years’ probation
                                               and fined $15,000 in U.S. District Court in Philadelphia as a
                                               result of her guilty plea to charges of fraudulent and inadequate
                                               training, testing and background checks of airport security
                                               employees at Philadelphia International Airport. Argenbright
                                               and two other employees who previously pleaded guilty were
                                               scheduled to be sentenced in October. OIG investigated this
                                               case with the FAA.


 Pennsylvania Airport Manager Sentenced for Theft of FAA Funds                                       Sept. 12
   William Santoro, former general manager of the Johnstown-Cambria County Airport Authority was sen­
 tenced to 4 months’ home confinement and ordered to pay $11,055 in fines and restitution by a U.S.
 District Court judge in Philadelphia as a result of his guilty plea to theft, receiving stolen property and tam­
 pering with public records. An investigation by OIG and
 the airport authority found that Santoro commingled state
 and local monies with FAA Airport Improvement
 Program funds and then fraudulently converted $9,555
 for his own use.


 Final Sentencing in Massive Scheme to Forge NHTSA Documents                                     Sept. 15
  A former union official was sentenced by an U.S. District Court judge in Toledo, OH on charges of per­
 juring himself before a federal grand jury. David C. Poland, former business agent in Toledo for the
 International Brotherhood of Teamsters, Chauffeurs, Warehousemen and Helpers of America, was placed
 on 2 years’ probation and fined $2,000 for perjuring himself before a federal grand jury probing activities
 of the operators of Central Trux & Parts, Inc., of Sylvania, Ohio. An OIG, IRS and U.S. Customs Service
 investigation determined that Central Trux imported several hundred tractor-trailer trucks and then affixed
 counterfeit NHTSA stickers to falsely indicate the Canadian manufactured trucks complied with U.S. stan­
 dards. Poland is the final defendant in this case.

42
                                                                                September



Amtrak’s Finances Examined                                                                     Sept. 19
 Although Amtrak’s ridership and revenue trends are positive, increases in labor costs, depreciation, and
train operation expenses have contributed to significant growth in operating expenses. Amtrak will need
to take major corrective actions if it is to achieve oper­
ating self-sufficiency in 2003, as required by law.
Amtrak’s strategic business plan relies on $737 million
of unspecified management actions to spur revenues
and cost savings. In addition, delays in the introduc­
tion of high speed rail service on the Northeast
Corridor are likely to reduce Amtrak’s 2001 revenue
below projections and increase pressure on Amtrak to
reduce expenses and improve performance in both its
passenger and non-passenger services. Finally,
Amtrak will face serious shortfalls in the capital investment funds necessary to maintain Amtrak’s infra­
structure and assets in a steady state through 2003. Amtrak plans to initiate revenue operations of its high-
speed Acela Express service in the Northeast Corridor on December 11.


Fourth Conviction in Trucking Safety Case                                                         Sept. 21
 Alan Archibald, former president of Aulenback, Inc., a trucking company in
Mexico, ME, pleaded guilty in U.S. District Court in Portland, ME, to
charges of failing to comply with a 1996 Federal order to cease opera­
tion. The out-of-service order had been issued for failing to maintain
adequate records and accepting false drivers’ logs. Three other defen­
dants, including the trucking firm, were previously convicted on relat­
ed charges. The prosecutions are the result of an investigation by OIG
and FMCSA.


Ex-FAA Engineer Pleads Guilty to Computer Fraud                                               Sept. 21
 A former FAA electronics engineer pleaded guilty in U.S. District Court in Chicago to charges of com­
puter fraud involving theft and destruction of FAA-owned computer software. Thomas Varlotta led a four-
person team that worked for 5 years to develop an air traffic control navigation program dubbed the
Automated Flight Data Processing System (AFDPS) that relayed critical flight data between Chicago
O’Hare Airport and the Elgin, IL, Terminal Radar Approach Control facilities. Varlotta resigned his FAA

                                                                                                             43
                                    position in June 1998, telling his supervisor that he had destroyed the
                                    original source code for the AFDPS program, for which FAA had spent
                                    more than $1,000,000 to develop. OIG special agents conducted a
                                    search of Varlotta’s residence and discovered a floppy disk that contained
                                    an encrypted version of the AFDPS program source code.


                                    Former FHWA Contract Employee Admits Theft                      Sept. 25
                                     A former contract employee at the Federal Highway Administration’s
                                    Turner-Fairbank Highway Research Center pleaded guilty in U.S. District
                                    Court in Alexandria, VA, to theft of Government property and embezzle­
                                    ment totaling $8,000. Christopher M. Remaley stole a Government test
                                    vehicle and auto parts from the McLean, Va., laboratory and used a
                                  Government credit card for personal fuel purchases. As a result of OIG’s
 investigation, Remaley was removed from the contract and terminated by the contractor.


 Audit Identified $35.4 Million in Inactive Obligations on Contracts                             Sept. 25
  We identified about 4,500 contractual obligations totalling about $143 million within DOT that had no
 activity within the last 36 months. Working with the Operating Administrations, we identified about $35.4
 million of obligations on contracts that no longer represented valid financial liabilities. These occurred
 because contracting officers generally were not reviewing obligations on an annual basis and were not clos­
 ing contracts quickly. Freeing up these unneeded funds earlier could allow their use to purchase other serv­
 ices or return of the taxpayers’ money to the United States Treasury. DOT agreed with our results and is
 taking corrective action.


 Aviation Parts Company Sentenced for False Statements                                              Sept. 25
   International Helicopter, Inc. of Northvale, NJ was placed on 5 years’ probation by an U.S. District Court
 judge in Newark, NJ following its guilty plea to charges of making false statements to the Federal Aviation
 Administration. The aviation parts distributor deceived an aircraft parts broker in the Netherlands by sub­
 stituting turbine blades manufactured by an unapproved source. IHI applied to the FAA for an airworthi­
 ness approval tag for use in export to Indonesia and provided an altered invoice to the FAA to falsely indi­
 cate traceability to an approved source. Under the terms of its probation, IHI must retain a court appoint­
 ed trustee, whose responsibility will include implementing a quality control system subject to periodic audit.
 OIG and the U.S. Customs Service investigated this case.


 MARAD Needs to Improve Maritime Security Program Controls                                    Sept. 26
  The Maritime Administration had not established written internal control procedures for the review of
 Maritime Security Program vouchers, did not determine whether vessels were under charter to the U.S.
 Government, and did not conduct timely reviews of vouchers and associated payments at the completion of


44
                                                                               September



                          the fiscal year, our audit found. MARAD concurred with our findings and took
                          immediate action to implement all our recommendations.


                          Coast Guard Employee Sentenced for Welfare Fund Theft                  Sept. 27
                           Andrew Yantek, assistant manager of the Coast Guard Welfare Club for the
                          Cleveland Area was sentenced in U.S. District Court in Cleveland, OH to 6
months’ home confinement and ordered to pay $36,131 restitution after pleading guilty to stealing funds
from Coast Guard club accounts and using them to pay his personal expenses between 1997 and October
1999. OIG investigated this case with the Coast Guard Investigative Service.


Guilty Plea in Air HazMat Case                                                                   Sept. 28
  Concepcion Leon of Puerto Rico pleaded guilty in U.S. District
Court in Brooklyn to charges of illegally offering concealed automo­
tive paint and related flammable materials to an air carrier for shipment
at New York’s LaGuardia Airport. Leon was indicted in August on
charges of concealing the box’s DOT-required hazardous materials
placard and telling a skycap that the box contained books. OIG inves­
tigated this case with the assistance of FAA.



Better Oversight of Technical Support Services Contract Needed                                    Sept. 28
 FAA has not exercised effective management oversight or followed its own guidelines on the $875 million
Technical Support Services Contract to ensure that support services are cost-effective and efficiently meet­
ing FAA requirements. As a result, FAA is at substantial risk for inflated and overpriced contract services.
These weaknesses in FAA’s oversight of the TSSC undercut one of the primary objectives of acquisition
reform, which was to provide more timely and cost-effective acquisitions and improve the quality of equip­
ment and services acquired by operating more like a business.


South Boston Piers Transitway Finance Plan Found Reasonable                               Sept. 28
 We issued a memorandum to the Acting FTA Administrator on our review of the February 2000
Massachusetts Bay Transportation Authority (MBTA) South Boston Piers Transitway finance plan. We
found that the plan documents the estimated costs-to-complete the project and how MBTA expects to pay


                                                                                                            45
                                               those costs. Our review determined that, based on current
                                               trends and projections, the projected funding for and the total
                                               cost to complete the Transitway were supportable and rea­
                                               sonable. Our analysis determined that MBTA would exhaust
                                               all project contingency funds and MBTA may have to use
                                               some of the reserved $50 million in local bond authority to
                                               cover future cost growth. However, our analysis concluded
                                               that this could be avoided because the project budget contains
                                               $13.7 million in costs that should be allocated to other
                                               MBTA cost centers. FTA had not certified the finance plan to
                                               Congress by the end of the fiscal year.


 Passenger Ferry Safety Inspections Reviewed                                                     Sept. 29
  A review of passenger ferry safety inspections found high levels of compliance with Coast Guard standards.
 When violations occurred, they were corrected. We did not assess the oper­
 ation of ferries or the qualifications of crews. For the 50 passenger ferries
 reviewed at New York and Puget Sound, we found that Coast Guard per­
 formed 87 percent of the required quarterly or annual inspections and that
 97.8 percent of the deficiencies identified during inspections were correct­
 ed. We attributed this level of compliance to the limited number of ferries
 operating in a port, the Coast Guard’s knowledge of ferry operators, and
 the risk associated with operating without a valid inspection in waters continuously monitored by the Coast
 Guard. Based on the results at these two ports, we determined no further work on whether inspections were
 conducted was warranted. ■




46
Application of Audit Resources
by Operating Administration
April 1, 2000 - September 30, 2000




                                                                 Note:Resources shown for OST include time spent performing the
                                                                 financial statement audit of DOT which includes all OAs.
                                                                 Time expended on SLSDC,STB and BTS was less than 1 percent.




                                                                 Application of Investigative Resources
                                                                 by Operating Administration




                                                                            $1,756,000
                                                                   $2,700,000
                                              $3,056,000




                                                    $3,194,000



OIG Fiscal Year 2001 Budget
Total: $52,974,000

                                             $9,272,000
                                                                                                                $32,996,000




•The Transportation Administrative Service Center
provides reimbursable services to DOT operating
administrations.


                                                                                                                              47
 Completed Audits April 1, 2000-September 30, 2000
 (Dollars in Thousands)
 Estimated Amounts*

                    Type of Review         Number of         Number of      Costs Questioned        Costs        Funds That Could
                                            Reports       Recommendations                        Unsupported      Be Put To Better
                                                                                                                        Use


     InternalAudits:

     Program/Functional                         34               79                $0                $0           $749,400

     Chief Financial Officer

     Financial Statements                       0                 0                $0                $0                $0


             Total Internal Audits             34                 79                0                 0            $749,400


     Grant Audits:

     Audits of Grantees under
     Single Audit Act                          19                11               $805               $0                $0

     Other Grant Audits                         0                 0                $0                $0                $0


                Total Grant Audits             19                11              $805                $0                 $0



                             TOTALS            53                90              $805                $0            $749,400




 * The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.



       Department of Transportation programs and operations are primarily carried out by the Department’s own personnel and
     recipients of federal grants. Audits by DOT’s Office of Inspector General, as a result, fall into 3 categories: internal audits of
     Departmental programs and operations, audits of grant recipients, and reviews of work and spending by contractors. The
     table above shows OIG’s results in the 3 categories for the 6 months covered by this report.




48
Management Decisions Regarding Audit Recommendations

(Dollars in Thousands)

Description                                    Number of           Number of       Questioned       Unsupported   Funds to be
                                                Reports           Recommen­          Costs            Costs*      Put to Better
                                                                    dations                                            Use


Unresolved as of 04/01/00                         39                 111             $276                0        $137,702

Audits with Findings During
Current Period                                    26                     90          $805                0        $749,400

               Total to be Resolved               65                     201        $1,081               0         $887,102

Mgt. Decisions:

A. Audits Prior Period
                        30***                     82          $184                0             0

B. Audits Current Period
                      15***                     50          $470                0        $749,400

                      Total Resolved              45                     132         $654                0        $749,400

Unresolved as of
9/30/00**                                         25                     69          $427                0        $137,702

Aging of Unresolved Audits:

Less than 6 mos. old                              12                     40          $336                0             0
6 mos. - 1 year                                    9                     19           $91                0        $136,000
1 year - 18 mos.                                   2                      3            0                 0           0
18 mos. - 2 years                                  2                     7             0                 0        $ 1,702
Over 2 years old                                   0                     0             0                 0             0


                              TOTALS              25                     69          $427               0         $137,702




*Unsupported costs included with the figure shown as questioned costs.
**Considered unresolved if management decisions have not been made on all report recommendations.
***Includes some reports and recommendations where costs were both allowed and disallowed.



                                                                                                                              49
 Audit Reports with Recommendations That Questioned Costs
 (Dollars in Thousands)

                                                 Number of Reports         Number of         Questioned Costs    Unsupported Costs*
                                                                        Recommendations




 A. For which no management
 decision had been made by start
 of the reporting period                               12                         17             $276                    0

 B. Which were issued during the
 period                                                5                          5              $805                    0


                               Totals (A+B)            17                         22             $1,081                  0

 C. For which a management
 decision was made during the
 reporting period                                      14                         17             $654                    0

 (i) dollar value of disallowed costs                  7**                        8***           $506****                0

 (ii) dollar value of costs not
 disallowed                                            9**                        10***          $341                    0

 D. For which no management
 decision has been made by the
 end of the reporting period                           4                          5              $427                    0




     The Inspector General Act requires explanations of reasons
                                                                         The Inspector General Act also requires this report to
     for significant revisions to management decisions made dur­
                                                                         describe any significant management decision with which
     ing the reporting period. OIG follows up on audits reported
                                                                         the Office of Inspector General disagrees. At the close of
     in earlier semiannual reports. During this reporting period,
                                                                         this reporting period, there were no significant manage­
     there were no significant revisions of Departmental manage­
                                                                         ment decisions with which OIG disagreed.
     ment decisions reported to OIG.


 *Unsupported costs are also included in the figures shown as questioned costs.
 ** Includes reports in which costs were both allowed and disallowed.
 *** Includes recommendations in which costs were both allowed and disallowed.
 ****Management committed to an amount greater than that recommended.


50
Audit Reports with Recommendations that Funds be Put to Better Use
(Dollars in Thousands)

                                                 Number of Reports      Number of        Dollar Value
                                                                     Recommendations   (in thousands)




A. For which no management decision had
been made by the commencement of the
reporting period                                        3                   3          $137,702


B. Which were issued during the reporting
period                                                  2                   2          $749,400




                                  TOTALS (A+B)          5                  5            $887,102



C. For which a management decision was
made during the reporting period                        2                  2           $749,400

(i) dollar value of recommendations that were
agreed to by management                                 2                   2          $749,400



(ii) dollar value of recommendations that were
not agreed to by management                             0                   0                0


D. For which no management decision
had been made by the end of the reporting
period                                                  3                   3          $137,702




                                                                                                        51
 Audit Reports Recommending Changes for Safety, Economy or Efficiency



                                                          Number of Reports   Number of Recommendations




 A. For which no management decision had been made
 by the commencement of the reporting period                     36
                     91




  B. Which were issued during the reporting period               20                      83





                                        TOTALS: (A + B)          56
                    174 




  C. For which a management decision was made during
  the reporting period                                           38
                    113





 D. For which no management decision has been made
 by the end of the reporting period                              22
                     61





52

Status of Unresolved Audit Recommendations Over 6 Months Old
                       CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1998-MARCH 31, 1999
Motor Carrier Program for Commercial        TR-1999-034     12/28/98   Working with OST and FMCSA to
Trucks at U.S. Borders by the Office of                                resolve all open issues
the Secretary

Deployment of EDS, FAA                      AV-1999-001     10/05/98   Working with FAA to resolve all open issues


                      CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1999-SEPTEMBER 30, 1999

Independent Assessment of Amtrak            CE-1999-116      7/21/99   Working with Amtrak to resolve all
                                                                       open issues

Motor Carrier Safety Program                TR-1999-091      4/26/99   Working with FMCSA to resolve all
                                                                       open issues


                       CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1999-MARCH 31, 2000

Follow-up Review on the Progress of the     RT-2000-073      3/24/00   Will be resolved during first quarter of
Los Angeles Metro Rail Red Line                                        FY 2001

The Coast Guard’s Planning Process for      MA-2000-065      3/09/00   Working with USCG to resolve all open
the Deepwater Replacement Project                                      issues

City of New York                            QC-2000-027     12/21/99   Working with FHWA to resolve all open
                                                                       issues

Baseline Review of the St. Clair            RT-2000-025     12/17/99   Will be resolved during first quarter of
Extension, Federal Transit Administration                              FY 2001

Airport Access Control, Federal Aviation    AV-2000-017     11/18/99   Working with FAA to resolve all open
Administration                                                         issues

Cost Allocations by the Transportation      MA-2000-015     11/05/99   Working with TASC to resolve all open
Administrative Service Center                                          issues

ATA Foundation Affiliates                   QC-2000-006     10/25/99   Working with FHWA to resolve all open
                                                                       issues

Suburban Mobility Authority for             QC-2000-007     10/25/99   Will be resolved during first quarter of
Regional Transportation                                                FY 2001

Review of the Alameda Corridor Project      TR-2000-004     10/22/99   Working with FHWA and FRA to
Federal Highway Administration, Federal                                resolve all open issues
Railroad Administration




                                                                                                                     53
 Profile of Pending Investigations


                                                                                             Types of Cases
      DOT Operating Administration             Number
                                               of Cases       Contracts/     Employees       Aviation     Motor carrier   HazMat   Other*
                                                               Grants                         Safety        Safety



  U.S. Coast Guard                                 43            10             10              1              0           15        7

  Federal Aviation Administration                 185            17             31             60              0           15       62

  FederalHighway Administration                   105            51              7              0              6            1       40

  Federal Railroad Administration                  8              3              0              0              0            2        3

  Federal Transit Administration                  26             23              0              0              0            0        3

  Maritime Administration                          7              3              1              0              0            0        3

  Federal Motor Carrier Safety                     85             0              1              0             38           22       24
  Administration

  Office of the Secretary                          10             3              3              0              0            0        4

  Research and Special Programs                    19             2              0              0              0           15        2
  Administration

  National Highway Traffic Safety                 12              0              6              0              0            0        6
  Administration

  Other agencies                                   2              0              0              0              0            1        1



                                  TOTALS:         502           112              59            61              44          71      155

                        Percent of Total          100            22              11            12               9          14       31




 *Includes, for this reporting period, categories such as bribery/gratuities, motor fuel excise tax evasion and graft.




54

Investigations




                          Indictments         105                                          OIG investigations in this report­
                          Convictions         95
                                                                                       ing period spurred $40,156,119
                     Years Sentenced          88

                      Years Probation         188                                      in recoveries including fines, resti­

                  Supervised Release          78
                                                                                       tution, civil judgments or settle­
    Hours of Community Service                2,230
                                                                                       ments, and federal and state recov­
                                   Fines      $10,229,121

    Restitutions/Civil Judgments              $25,667,299                              eries. Federal recoveries go to the
                    Federal Recovery          $4,080,678
                                                                                       U.S. Treasury. State recoveries are
                       State Recovery         $179,021

                               TOTAL          $40,156,119                              retained by the states.



   The 6 months covered by this                                            Administrative Actions
                                                                    April 1, 2000-September 30, 2000
 report opened with a pending case-
 load of 491. During the period,                                Employee Suspensions           4

 117 cases were opened and 106                                 Employee Terminations           4

 were closed, leaving a pending case-                                     Employee             3
                                                             Resignation/Retirements
 load of 502.
                                                                 Employee Reprimand            1

   During the period, 68 cases were                               Employee Counseled           14

 not accepted for prosecution, while                        Debarments/Suspensions             11

 17 were declined.** The number                               Other Corrective Action          19
 of cases pending before prosecutors                           Regulation/rule revised          1
 as of September 30, 2000 was 75.                                                  TOTAL        57

**These figures include action on cases referred during prior reporting periods.


                                                                                                                                55

                                                                List of Acronyms Found in This Report:

                                                                ATC     Air Traffic Control
                                                                BTS     Bureau of Transportation Statistics
         Fiscal Year 1999 and Fiscal Year 2000 comparison of:   CDL     Commercial Driver’s License
         Fines, Restitutions and Recoveries                     DBE     Disadvantaged Business Enterprise
                                                                DCIS    Defense Criminal Investigative Service
                                                                FAA     Federal Aviation Administration
                                                                FBI     Federal Bureau of Investigations
                                                                FMCSA	 Federal Motor Carrier Safety
                                                                       Administration
                                                                FHWA    Federal Highway Administration
                                                                FRA     Federal Railroad Administration
                                                                FTA     Federal Transit Administration
                                                                INS     Immigration and Naturalization Service
                                                                MARAD Maritime Administration
                                                                NDRF    National Defense Reserve Fleet
                                                                NASA National Aeronautics and Space
     Fiscal Year 1999 and Fiscal Year 2000 comparison of:       Administration
     Indictments and Convictions                                NHTSA	 National Highway Traffic Safety
                                                                       Administration
                                                                NTSB    National Transportation Safety Board
                                                                OIG     Office of the Inspector General
                                                                OST     Office of the Secretary
                                                                RSPA	   Research and Special Programs
                                                                        Administrations
                                                                SLSDC	 St. Lawrence Seaway Development
                                                                       Corporation
                                                                STD     Surface Transportation Board
                                                                TASC	   Transportation Administrative Service
                                                                        Center

                                                                USCG    United States Coast Guard


56
                                                                                      PCIE Awards




E
          stablished by executive order in 1981, the President’s Council on Integrity and Efficiency (PCIE) is
          comprised of all Presidentially-appointed Inspectors General as well as the director of the Office of
          Government Ethics, special counsel of the Office of Special Counsel, the Federal Bureau of
Investigations, and the deputy director of the Office of Management and Budget (OMB).
 The PCIE is charged with conducting interagency and inter-entity audit, inspection and investigation proj­
ects to effectively and efficiently deal with government-wide issues of fraud, waste and abuse. On September
29, numerous members of the DOT-OIG team, as well as individuals from other agencies working with
DOT-OIG were honored by their peers at an awards ceremony in Washington, DC.

The following employees received AWARDS FOR EXCELLENCE:
                                              Runway Incursion Team
■   In recognition of significant contributions made in evaluating and improving FAA’s Runway Incursion
    Program.
    Richard A. Kaplan          Kevin Dorsey                 Robert L. Drake
                                                Aviation Safety Team
■ In   recognition of outstanding performance, dedication, and contribution to a major Congressional,
    Department and public transportation issue, improving aviation security.
    Robin K. Hunt              A. Robert Lund               Humberto U. Melara         Judy W. Nadel
    Robert Y. Lee              Paul Nagulko                 Scott C. Seaborn           James H. Yeager
    Lisa H. Stone              Kim P. Tieu                  James K. Wahleithner       Gerald L. Blumenthal
                                 Suspected Unapproved Aviation Parts Team
■ In recognition of outstanding joint criminal investigation by three OIGs in the area of suspected unapproved
    aviation parts.
    Paul L. Blake              Fred Cosby (DCIS)            Keith Tate (NASA)

                                      AWARD FOR EXCELLENCE — EVALUATION:

                               Hazardous Materials Program Evaluation Team
■ In   recognition of outstanding efforts in performing the Department-wide evaluation of DOT’s Hazmat
    Program.
    Jackie A. Goff               Edward M. Stulginsky            Greggory S. Bond       Kirk A. Gillett
    George A. Whitney (RSPA)     Delmer F. Billings(RSPA)        Mark Lendvay (FAA)     Raymond Kasey (FRA)
    Curnis King(FMCSA)          Capt. Geoffrey Powers (USCG)     Mark R. Dayton         Bahar Barami (VOLPE)


                                                                                                               57
                                AWARD FOR EXCELLENCE — MULTIPLE DISCIPLINE
                               National Transportation Safety Board Team
 ■ In  recognition of the thorough and well-coordinated audit and investigations of internal controls for the
     National Transportation Safety Board’s check writing program. This joint effort identified fraud, abuse, and
     mismanagement, prompting swift and comprehensive corrective actions.
     Stephen J. Rybicki  Theodore M. Kilby, Jr.     Keith A. Bonanno                Christopher R. Smith

     George C. Hardin        Harry Schaefer              Richard C. Beitel, Jr.     Eric A. Johnson

     Ray Sanchez             Kevin P. Trebel


                               AWARD FOR EXCELLENCE — LAW AND LEGISLATION
                                           Motor Carrier Safety Team

 ■   For the dedication and perseverance exhibited to ensure audit recommendations resulted in timely legislative

     actions to improve highway safety.
     Barbara M. Cobble       Joseph W. Come              Margaret Uckert          Al J. Ruth
     Kerry R. Barras         James W. Bess               David W. Brown             Carl H. Hamilton
     Ann Kruszewski          Harriet E. Lambert          Kristen Massey             Frank H. Ochs
     Petra Rose              Al J. Ruth                  William E. Savage          Al Schenkelberg
     Maurice Toval           Brian A. Dettelbach

                   AWARD FOR EXCELLENCE — MANAGEMENT AND ADMINISTRATIVE SERVICE
                                                    Y2K Team
 ■   For outstanding leadership in auditing Y2K issues within the U.S. Department of Transportation.
     John L. Meche           Rebecca C. Leng           Philip J. DeGonzague     Kari M. Beitel
     Nathan J. Custer        Clarence S. Fujimoto

                                 JOINT AWARD — INDIVIDUAL ACCOMPLISHMENT
 ■ In recognition of his tireless efforts to advance, and enhance the legislative work of the PCIE/ECIE
  Brian A. Dettelbach
                          AWARD FOR EXCELLENCE — INDIVIDUAL ACCOMPLISHMENT
 ■ In recognition of outstanding effort conducting criminal investigations of hazardous material violations in
   the aviation industry.
  Barbara Porraspita
                                        CAREER ACHIEVEMENT AWARD
 ■ For superior leadership and career contributions to the Inspector General community.
  Raymond J. DeCarli
                                 AWARD FOR EXCELLENCE — JOINT AWARD
                               The DOT Members of the Cross Agency Team

 ■ For     superior efforts in establishing the “Business Side” of IGNET and improving communications among

      members of the IG community.
     Jeffrey W. Davis            Brian A. Dettelbach

58
Office of Inspector General Audit Reports
Apri1 1, 2000-September 30, 2000

FEDERAL AVIATION ADMINISTRATION
INTERNAL AUDITS - 6 reports


      REPORT            DATE                             SUBJECT                               FOCUS OF REPORT/
                                                                                              RECOMMENDATIONS:


AV-2000-127          09/28/00   •Technical Support Services Contract                     Better management over-

                                                                                         sight and sound business

                                                                                         practices needed

AV-2000-110          08/29/00   •Survey of the FAA’s Integrated Product Development      Improve the effectiveness of

                                System (IPDS)                                            IPDS team operations


AV-2000-102          06/21/00   •Interim Report on Airline Customer Service Commitment   Improve passenger service

                                Plan
AV-2000-095          05/15/00   •FAA’s Use of RTCA, Inc. as an Advisory Committee
       Strengthen FAA’s use of

                                                                                         advisory committee

FE-2000-087          04/27/00   •Proposed Rulemaking on Collection Costs Associated
     Perspectives on airlines’ cost

                                with Passenger Facility Charges
                         to collect PFC’s

AV-2000-079          04/12/00   •Contract Towers: Observations on FAA’s Study of
        Revise draft study of

                                Expanding the Program
                                   expanding the Contract

                                                                                         Tower Program


GRANT AUDIT — POST-AWARD - 4 reports

QC-2000-114         02/29/00    •City and County of Denver, CO                           $335,822 questioned costs


QC-2000-083         05/23/00    •Rhode Island Airport Corporation                        Improve grantee ovesight 


QC-2000-077         04/04/00    •Gulfport-Biloxi Regional Airport Authority              $144,893 questioned costs


QC-2000-105         06/21/00    •City of St. Louis, MO                                   Improve grantee ovesight



OTHER - 2 reports

AV-2000-113         07/26/00    •Observations of FAA’s Satellite Navigation Efforts      Testimony before Congress


AV-2000-076         04/06/00    •Aviation Security Hearings                              Testimony before Congress





                                                                                                                           59
 Office of Inspector General Audit Reports
 Apri1 1, 2000-September 30, 2000

 FEDERAL HIGHWAY ADMINISTRATION
 INTERNAL AUDITS - 2 reports
          REPORT       DATE                                SUBJECT                             FOCUS OF REPORT/
                                                                                              RECOMMENDATIONS:

     TR-2000-090    05/09/00   •Review of Alternative Fuel Vehicles Purchased with       Improve information
                               Congestion Mitigation and Air Quality Improvement Funds
     TR-2000-088    05/07/00   •Central Artery/Ted Williams Tunnel Project               $714,000,000 Better use
                               Highlights Need for Effective Federal Oversight
 GRANT AUDIT - POST-AWARD - 5 reports
     QC-2000-101    05/30/00   •State of Arizona
                                        $310,877 questioned

     QC-2000-078    04/04/00    •Grand Valley Metropolitan Council
                      $13,820 questioned

     QC-2000-115    08/18/00    •Southern California Association of Goverments
          Improve grantee oversight

     QC-2000-116    08/18/00    •State of Conneticut
                                    Improve grantee oversight

     QC-2000-117    08/18/00    •State of Rhode Island 
                                 Improve grantee oversight

 FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
 INTERNAL AUDITS - 1 report
     MH-2000-106    06/30/00   •Disqualifying Commercial Drivers                         Improve safety

 FEDERAL RAILROAD ADMINISTRATION
 INTERNAL AUDITS - 2 reports
     CR-2000-121    09/19/00    •2000 Assessment of Amtrak’s Financial Performance       Implement major correc­
                                and Requirements                                         tive actions to its strategic
                                                                                         business plan
     RT-2000-081    04/19/00    •Pennsylvania Station Redevelopment Project              Improve oversight and
                                                                                         fund safety needs
 MARITIME ADMINISTRATION
 INTERNAL AUDITS - 3 reports
     MA-2000-097    06/21/00    •Limited Progress in Disposing of Obsolete Vessels       Enviromental protection


     MA-2000-096    05/12/00   •Report on Ready Reserve Force Ship Managers’
            Improve financial controls 

                               Contracts

     MA-2000-123    09/26/00   •Follow-up of Audit Payments Under the Maritime
          Improve financial controls 

                               Security Program


 OTHER

 INTERNAL AUDITS - 1 report

     MA-2000-093    06/21/00    •Reauthorization of Maritime Administration              Testimony before Congress



60
Office of Inspector General Audit Reports
Apri1 1, 2000-September 30, 2000

OFFICE OF THE SECRETARY OF TRANSPORTATION

INTERNAL AUDITS - 9 reports

      REPORT         DATE                              SUBJECT                                FOCUS OF REPORT/
                                                                                             RECOMMENDATIONS:

FI-2000-125
       09/25/00   •Inactive Obligations on Contracts                        $35,400,000 Better use

FI-2000-124
       09/25/00   •Headquarters Computer Network Security                   Improve security

FI-2000-119
       09/08/00   •Third Interim Report on Travel Policies and Practices
   Reporting of travel and

                              of Political Appointees
                                  campaigning

CR-2000-112
       07/24/00   •Air Carrier Flight Delays and Cancellations
             Improve data collection


FI-2000-107
       07/14/00   •Second Interim Report on Travel Policies and
            Reporting of travel and

                              Practices of Political Appointees
                        campaigning

FI-2000-108
       07/13/00   •Interim Report on Computer Security 
                    Improve computer security


MH-2000-109
       07/20/00   •The Department of Transportation’s Rulemaking
           Improve rulemaking

                              Process, Department wide

FE-2000-089
       05/01/00   •Interim Report on Travel Policies and Practices of
      Reporting of travel and

                              Political Appointees
                                     campaigning 

FE-2000-080
       04/11/00   •Use of Funds for the Year 2000 Computer Program
         Proper use of funds


OTHER - 1 report
CR-2000-111        07/20/00   •Internet Sales of Airline Tickets                        Testimony before Congress





UNITED STATES COAST GUARD
INTERNAL AUDITS - 2 reports

MA-2000-084        04/20/00   •Audit of the Performance Measure for the
                Improve boating safety data

                              Recreational Boating Safety Program

MH-2000-128        09/29/00   •Coast Guard Program for Overseeing Passenger Ferry
      High level of compliance

                              Safety
                                                   with regulations found


FEDERAL TRANSIT ADMINISTRATION
INTERNAL AUDITS - 3 reports
RT-2000-085        04/21/00   •Bay Area Rapid Transit District Extension to San         Financial Plan reasonable
                              Francisco International Airport
RT-2000-091        05/08/00   •Report on the Financial Plan for the Tren Urbano Rail    Financial Plan reasonable
                              Transit Project
FE-2000-098        05/23/00   •Computer Security Controls of Financial Management       Improve computer security
                              System




                                                                                                                    61
     Office of Inspector General Audit Reports
     Apri1 1, 2000-September 30, 2000


     GRANT AUDITS — POST-AWARD - 10 reports

          REPORT         DATE                             SUBJECT                          FOCUS OF REPORT/
                                                                                          RECOMMENDATIONS:

     QC-2000-082       04/13/00   • Metropolitan Atlanta Rapid Transit Authority      Improve grantee oversight

     QC-2000-085       04/21/00   • San Francisco Bay Area Transit Authority          Improve grantee oversight

     QC-2000-094       05/23/00   • Pioneer Valley Transit Authority                  Improve grantee oversight

     QC-2000-099       05/25/00   • Bi-State Development Agency                       Improve grantee oversight

     QC-2000-100       05/30/00   • City of Seattle, WA                                Improve grantee oversight

     QC-2000-103       06/21/00   • Santa Clara Valley Transportation Authority        Improve grantee oversight

     QC-2000-104       06/21/00   • Kansas City Area Transportation Authority          Improve grantee oversight

     QC-2000-120       07/18/00   • Regional Transit District                          Improve grantee oversight

     QC-2000-118       08/29/00   • Utah Transit Authority                             Improve grantee oversight

     QC-2000-126       09/28/00   • Chicago Transit Authority                          Improve grantee oversight



     BUREAU OF TRANSPORTATION STATISTICS
     OTHER REPORTS - 1 report

     CR-2000-122       09/15/00   • Flight Delays and Cancellations                   Testimony before Congress


     RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION
     OTHER REPORTS - 1 report

     RT-2000-069       03/13/00   • Pipeline Safety Program
                          Testimony before Congress

     RT-2000-092       05/11/00   • Reauthorization of the Pipeline Safety Program
   Complete rulemaking and
                                                                                      improve oversight




62
Office of Inspector General — Other Congressional Testimonies
Apri1 1, 2000-September 30, 2000

CONTROL NO.    DATE                              SUBJECT                                       BEFORE
FEDERAL AVIATION ADMINISTRATION
CC-2000-380   10/05/00    • Observation on FAA and Industry Efforts to Address     Subcommittee on Oversight,
                          Concerns about Aircraft Wiring	                          Investigations and Emergency
                                                                                   Management Committee on
                                                                                   Transportation and Infrastructure,
                                                                                   House of Representatives
CC-2000-359   06/26/00    • Observations on FAA’s Satellite Navigation Efforts     Subcommittee on Aviation of the
                                                                                   House Committee on
                                                                                   Transportation and Infrastructure
CC-2000-079   06/28/00    • Airline Customer Service Commitment                    Senate Committee on
                                                                                   Commerce, Science and
                                                                                   Transportation
CC-2000-356   09/14/00    • Flight Delays and Cancellations                        Senate Committee on
                                                                                   Commerce, Science and
                                                                                   Transportation
CC-2000-303   07/25/00    • Air Carrier Flight Delays and Customer Service	        Subcommittee on
                                                                                   Transportation and Related
                                                                                   Agencies of the Senate
                                                                                   Appropriations Committee
CC-2000-111   07/20/00    • Internet sales of airline tickets 	                    Senate Committee on Commerce,
                                                                                   Science and Transportation
CC-2000-076   04/06/00    • Aviation Security	                                     Subcommittee on Aviation of the
                                                                                   Senate Commerce, Science and
                                                                                   Transportation Committee
OFFICE OF SECRETARY OF TRANSPORTATION
CC-2000-359   09/27/00	   • Computer Security Within the U.S. Department of        House of Representatives
                          Transportation                                           Committee on Science

FEDERAL RAILROAD ADMINISTRATION
CC-2000-351   09/26/00    • Assessment of Amtrak’s Financial Performance and       Senate Committee on
                          Requirements                                             Commerce, Science, and
                                                                                   Transportation
MARITIME ADMINISTRATION
MA-2000-097   06/09/00    • Maritime Administration: Disposal of obsolete ships	   Budget Committee Task Force on
                                                                                   Housing and Infrastructure, U.S.
                                                                                   House of Representatives

MA-2000-097   05/24/00	   • Maritime Administration: Limited Progress in           Subcommittee on Coast Guard
                          Disposing of Obsolete Vessels                            and Maritime Transportation,
                                                                                   Committee on Transportation and
                                                                                   Infrastructure
FEDERAL HIGHWAY ADMINISTRATION

TR-2000-088   05/03/00	   • Central Artery/Ted Williams Tunnel Project             Senate Committee on 

                          Highlights Need for Effective Federal Oversight          Commerce, Science, and

                                                                                   Transportation

NATIONAL TRANSPORTATION SAFETY BOARD

ntsbrapid     04/13/00    • National Transportation Safety Board —                 Budget Committee Task Force on
                          Rapidraft Payment System                                 Housing and Infrastructure, U.S.
                                                                                   House of Representatives

                                                                                                                   63
